<html>
<title> - NATIONAL PROBLEMS, LOCAL SOLUTIONS: FEDERALISM AT WORK PART I FIGHTING CRIME IN THE TRENCHES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                  NATIONAL PROBLEMS, LOCAL SOLUTIONS:
                           FEDERALISM AT WORK
                                 PART I
                     FIGHTING CRIME IN THE TRENCHES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 1999

                               __________

                            Serial No. 106-7

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
56-931                     WASHINGTON : 1999


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 3, 1999....................................     1
Statement of:
    Giuliani, Rudolph W., mayor, New York City...................    20
    Shorstein, Harry L., state attorney, Jacksonville, FL; John 
      F. Timoney, police commissioner, Philadelphia Police 
      Department; and Robert Cheetham, senior analyst, 
      Philadelphia Police Department, Crime Mapping Unit.........    61
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Cheetham, Robert, senior analyst, Philadelphia Police 
      Department, Crime Mapping Unit, prepared statement of......    75
    Giuliani, Rudolph W., mayor, New York City, prepared 
      statement of...............................................    28
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, information concerning early childhood 
      development programs.......................................    45
    Owens, Hon. Major R., a Representative in Congress from the 
      State of New York, prepared statement of...................    13
    Shorstein, Harry L., state attorney, Jacksonville, FL, 
      prepared statement of......................................    64
    Timoney, John F., police commissioner, Philadelphia Police 
      Department, prepared statement of..........................    99
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................    19

 
                  NATIONAL PROBLEMS, LOCAL SOLUTIONS:
                           FEDERALISM AT WORK
                                 PART I
                     FIGHTING CRIME IN THE TRENCHES

                              ----------                              


                        WEDNESDAY, MARCH 3, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, Ros-
Lehtinen, Horn, Barr, Hutchinson, Terry, Biggert, Ryan, Owens, 
Mink, Maloney, Fattah, Kucinich, Blagojevich, Davis of 
Illinois.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; Barbara Comstock, chief counsel; 
David Kass, deputy counsel and parliamentarian; John [Timothy] 
Griffin, senior counsel; Mark Corallo, director of 
communications; Corinne Zaccagnini, systems administrator; 
Carla J. Martin, chief clerk; Lisa Smith-Arafune, deputy chief 
clerk; Tom Bossert, assistant to the chief of staff; John 
Mastranadi, investigator; Jacqueline Moran, legislative aide; 
Phil Schiliro, minority staff director; Phil Barnett, minority 
chief counsel; Cherri Branson, David Rapallo, and Micheal 
Yeager, minority counsels; and Jean Gosa, minority staff 
assistant.
    Mr. Burton. The committee will come to order.
    Good morning. A quorum being present, the Committee on 
Government Reform will come to order. I ask unanimous consent 
that all Members' and witnesses' opening statements be included 
in the record.
    Without objection, so ordered.
    Today's hearing is the first in a series that will take a 
close look at the relationship between State and local 
governments and the Federal Government.
    Many of the most innovative and successful public-policy 
reforms enacted in recent years originated at the State and 
local levels. From crime and welfare reform, to education and 
taxes, State and local governments have led the way in reforms.
    For example, much of the highly successful welfare-reform 
law that we passed in the 104th Congress was taken directly 
from reforms enacted in Wisconsin by Governor Tommy Thompson.
    President Clinton vetoed welfare reform twice, but once the 
law was enacted, it revolutionized the welfare system across 
America, and the welfare rolls declined dramatically.
    Also in response to the Governors and the mayors, the 
Republican Congress curbed the practice of imposing unfunded 
Federal mandates, which placed burdensome demands on State and 
local governments. And while Governor Huckabee has abolished 
the marriage penalty from the income-tax laws in Arkansas, we 
are still working to eliminate the marriage penalty at the 
Federal level.
    So once again we have a Governor and the State far ahead of 
the Federal Government. The successful reforms in many States 
and local governments have been widely reported. However, less 
attention has been paid to determining the appropriate role 
that the Federal Government should play in helping them solve 
their problems.
    So we want to hear from State and local leaders across this 
Nation on this issue. I think it is important to learn what has 
enabled these leaders to govern successfully.
    Over the next several months, this committee will hold a 
series of hearings entitled, ``National Problems, Local 
Solutions: Federalism at Work.'' Through these hearings, the 
committee will highlight successful and innovative reforms at 
the State and local levels.
    The committee will show that many of the solutions to the 
problems facing America originate at the State and local levels 
and not at Washington, DC, determine which existing Federal 
programs best assist States and cities, explore new ways that 
the Federal Government can help State and local governments in 
the most cost-effective way, and participate in the national 
dialog regarding the respective roles of the local, State, and 
Federal Governments in addressing America's problems.
    An examination of these issues fit squarely within the 
committee's jurisdiction over inter-governmental relations.
    The States have often been described as the laboratories 
for change where new policy ideas are created, developed, and 
tested. Ideas are measured by the results they produce, and 
successful ideas are shared and disseminated from State to 
State.
    As new ideas are implemented, and as public policy changes 
at the State and local levels, the Congress and the 
administration must reassess the role of the Federal 
Government. As old assumptions and ideas are replaced by 
innovative and successful reforms, it is reasonable to take a 
fresh look at the role of the Federal Government and its 
relationships to State and local governments.
    Today's hearing, entitled, ``National Problems, Local 
Solutions: Federalism at Work, Part I--Fighting Crime in the 
Trenches,'' is the first installment in our series of hearings 
that does exactly that, reassess the role of the Federal 
Government.
    We will hear from three public officials, a mayor, a 
prosecutor, and a police commissioner. They have all enjoyed 
great success in fighting crime at the local level.
    First, we will hear from the mayor of New York City, 
Rudolph Giuliani. Mayor Giuliani has been a leader in fighting 
crime for almost 30 years. He first served as an assistant U.S 
attorney in New York. He then became an Associate Deputy 
Attorney General under President Gerald Ford.
    In 1981, President Ronald Reagan named him Associate 
Attorney General, the third highest position in the Department 
of Justice.
    Mayor Giuliani also served as the U.S. attorney for the 
southern district of New York during the Reagan administration. 
And in 1993, he was elected the 107th mayor for the great city 
of New York.
    The statistics describing Mayor Giuliani's first term in 
office are nothing short of staggering. New York City has the 
lowest crime rate among the nine American cities with a 
population over 1 million. Overall crime is down 50 percent, 
and murder is down by 69 percent.
    Mayor Giuliani is in an ideal position to suggest ways the 
Federal Government can help cities fight crime. While crime is 
on the decline nationally, New York City's success has 
contributed disproportionately to the national trend. For 
example, from 1993 to 1997, New York City accounted for 38 
percent of the total reduction in the FBI index crimes in 
cities with a population over 100,000, 28 of the reduction in 
homicides and 63 percent of the reduction in larceny theft.
    In 1997 alone, 146 percent more crimes were committed in 
Detroit and 95 percent more in Dallas than in New York City. In 
other words, crime has been reduced to a far greater degree in 
New York City than the national average.
    It deserves mention that New York City's success in 
reducing crime was accompanied by a 21-percent decrease in the 
use-of-force allegations against police officers from 1995 to 
1998.
    Now I would just like to say as an aside, that I have been 
to New York City many, many times over the years, both as a 
private citizen and as a public office holder, and during the 
first term of Mayor Giuliani, I want to tell you, New York City 
has been transformed. You can walk through Manhattan without 
any fear. There are policemen in cubicles on every other 
corner, or every corner. The area has been cleaned up. The 
restaurants are really nice.
    I just want to tell you, it was like a transformation. And 
Mayor Giuliani, from one citizen to a great mayor, you have 
done an extraordinary job and people across this country ought 
to visit New York City. [Laughter.]
    This is an unsolicited testimonial to try to get you a 
little tourism. [Laughter continues.]
    Now, you see, you've got some applause from one of your 
Congressmen. [More laughter.]
    On our second panel, we will have State Attorney Harry 
Shorstein of Jacksonville, FL, and Police Commissioner John 
Timoney of Philadelphia.
    After serving in the Marine Corps in Vietnam, for which he 
was highly decorated, Mr. Shorstein returned to Florida, where 
he gained experience as both a defense attorney and a 
prosecutor. He served as the division head in the office of the 
public defender and subsequently as the division head and chief 
assistant State attorney. Mr. Shorstein has served as the 
elected State attorney for Jacksonville since 1991.
    Mr. Shorstein has received high praise for his juvenile 
justice reforms, which combine prevention with punishment and 
rehabilitation. Since the implementation of Mr. Shorstein's 
juvenile justice strategy, juvenile crime in Jacksonville has 
plummeted. Murder is down 78 percent, and vehicle theft is down 
58 percent.
    According to a recent Florida State University study, 
Jacksonville's approach to juvenile crime under the leadership 
of Mr. Shorstein has averted more than 8,700 crimes between 
1992 and 1995. Mr. Shorstein is a Democrat, but his approach to 
juvenile justice has enjoyed widespread bipartisan respect. He 
has earned the support of Jacksonville's Republican mayor, a 
Democrat sheriff, and a Jacksonville City Council.
    He has briefed Democratic U.S. Senators at their 1998 
issues conference and Republican U.S. Senators at their 1998 
retreat.
    The juvenile justice model developed in Jacksonville by Mr. 
Shorstein deserves national attention. It has been featured on 
CBS' ``60 Minutes,'' ``The News Hour With Jim Lehrer,'' and 
``NBC Nightly News With Tom Brokaw,'' among many others.
    Philadelphia Police Commissioner John Timoney will be 
joining Harry Shorstein on our second panel. The Commissioner 
was born in Ireland.
    Won't be long until we will all be Irish. Isn't St. 
Patrick's Day coming up here pretty quick? [Laughter.]
    He was born in Ireland and began his law-enforcement career 
in 1969 as a rookie police officer in New York City. The 
Commissioner rose through the ranks and was appointed first 
deputy commissioner on January 13, 1995, the second highest 
rank in the New York City Police Department. Commissioner 
Timoney was appointed police commissioner on March 9, 1998 in 
Philadelphia.
    Although he has been a commissioner less than a year, there 
are already signs of his progress. Murders are down 19 percent, 
narcotics arrests are up 70 percent, and arrests overall are up 
17 percent. One of Commissioner Timoney's most innovative 
reforms, Operation Sunrise, an anti-drug initiative, has 
resulted in 2,363 arrests, and the seizure of $1.9 million in 
drugs, 73 guns, and 122 vehicles.
    Commissioner Timoney is also implementing high-tech 
solutions to stalk criminals and reduce crime. Under his plan, 
police personnel input timely, accurate crime data into a 
computer system linked throughout Philadelphia. Analysis of the 
data through mapping techniques allows Commissioner Timoney to 
distribute his resources where they are most needed.
    He has recruited a former economics professor and British 
police science expert under Margaret Thatcher's government, 
Gordon Wasserman, to assist with this high-tech program.
    In the wake of the success our witnesses have experienced 
over the past few years, it's time to ask these questions.
    How has the Federal Government impacted your success in 
fighting crime? Has the Federal Government hindered your crime-
fighting efforts? And, if so, why? What future steps should we 
take to assist your crime-fighting efforts?
    Today's witnesses will help the committee answer these 
questions. The Congress needs to know when to help, how to 
help, and when to step out of the way.
    We need to be a partner with State and local governments, 
not a hindrance and not a nuisance.
    I'd like to welcome all of our witnesses to the committee. 
We are delighted you are here with us today, and we look 
forward to hearing your testimony. And with that, we will start 
off with Mayor Giuliani.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.001
    
    [GRAPHIC] [TIFF OMITTED] T6931.002
    
    [GRAPHIC] [TIFF OMITTED] T6931.003
    
    [GRAPHIC] [TIFF OMITTED] T6931.004
    
    Mr. Owens. Mr. Chairman?
    Mr. Burton. Yes, sir.
    Mr. Owens. May I have a chance to make one opening 
statement on my side.
    Mr. Burton. Oh, yes, sir. We will be glad to--we will yield 
to my colleague, Major Owens, for an opening statement. And if 
any of my other colleagues would like to have an opening 
statement, we will yield to them too.
    Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman. Welcome, Mr. Mayor.
    I want to start by congratulating you, Mr. Mayor. As a 
fellow New Yorker, I applaud your leadership in lowering the 
crime rate in New York City. Every citizen, including my 
constituents in the 11th Congressional District, benefits from 
the comfort level achieved in neighborhoods over the past few 
years.
    They also benefit from the improvement in the city's image, 
which enhances our huge tourism industry and generates budget 
surpluses, which one day, because I also serve on the Education 
Committee here, one day I hope will be used to replace some of 
the 250 coal-burning furnaces in public schools, which pollute 
the schoolyard air and add to the children's asthma crisis that 
we have in the city.
    I also hope the surplus from the tourism revenue will one 
day be used to build new schools and end the widespread 
practice of overcrowded schools, which forces students to eat 
lunch at 10 a.m. because the cafeterias can only function by 
feeding children in shifts.
    These are some of the problems I think the surplus 
accumulated from our successful tourism industry should be 
dedicated to. What I'm saying, Mr. Mayor, is that the stakes 
are high for all of us. When law and order are pursued with a 
respect for civil rights and justice, we all benefit.
    However, when a preoccupation with a scorecard on crime 
drives the crime-fighting effort to the point of diminishing 
returns, then all of those benefits face the danger of sudden 
evaporation. One or two massive riots in any large city could 
overnight greatly alter the image of that city. One immediate 
consequence would be a drastic decline in revenue from a much-
needed tourism industry.
    The greatest consequence, however, of such an urban 
upheaval, would be the damage done to the psyche of its 
citizens and the poisoning of relations among its diverse 
groups.
    My hope here is that New York City has maximized its short-
term benefits from reduced crime. My understanding is, and we 
all applaud that--however, we face a loss of these benefits 
over the long haul because your administration now seems to 
have an obsessive preoccupation with a quest for some imaginary 
trophy to be awarded to the No. 1 crime fighter in the Nation.
    The casuality of this obsession, is civil rights and 
justice in New York City. There are immediate dangers looming, 
and the tips of the iceberg are clearly visible in the series 
of unjust police atrocities that have occurred over the last 2 
years.
    The recent shooting of Amadou Diallo has moved the city 
closer to a negative climate that could be very harmful. The 
cases of Diallo and Abner Louima are well known. However, 
within the neighborhoods where citizens feel they are targeted, 
the accounts of serious police abuses are endless--within my 
district, the accounts are endless.
    First, people feel there is a strangeness there that 
surrounding the fact that police killings, and police 
atrocities of any kind, never occur with white victims in white 
neighborhoods. The victims are never white.
    This is 1999, not 1963, but those of us who were in 
positions of urban leadership in the sixties, can now clearly 
see some unfortunate parallels. We should all read the Kerner-
Lindsay Commission--called the Kerner report usually, but Mayor 
Lindsay was the mayor of New York City at that time and also 
was co-chairman of that commission.
    That report talked about the alienation of large segments 
of a city's population and how it creates what they called two 
societies, and how the highly visible and dramatic police 
abuses in these situations always are the spark plugs to set 
off spontaneous violence and riots.
    Before the New York City model is offered to the Nation, 
and I'm glad to see the positive features of that model offered 
to the Nation, before that is done, however, I strongly urge 
that you examine its weaknesses in the areas of civil rights 
and justice for ordinary citizens in their day-to-day 
interaction with the police.
    The communal environment of our great city has been 
polluted with an extremism that must be checked immediately. I 
have attached a set of very familiar questions related to 
civilian review boards, special prosecutors to police abuse 
cases, and the nationwide process of requiring residency for 
local police.
    These are logical, reasonable, common-sense demands that 
you have heard often, and they are often repeated. They, 
nevertheless, no matter how often repeated, still make good 
sense. It is imperative that these demands are addressed, will 
be addressed, if the long-term law-and-order benefit of what we 
have now is to continue over the long term, is to be achieved 
and preserved in New York City and in America in general.
    And I have here five questions, and one of those questions 
asks for statistics, which relate to the perception of people 
in my district and neighborhoods like mine, who think that they 
are victims unnecessarily. So among these questions, which I 
hope you will get back to us with answers on, to the committee, 
are statistics on the number of parking tickets written by 
police precincts so we can see which neighborhoods get the most 
parking tickets, the number of cars towed by the police by 
precinct, the number of youth arrested, the number of them 
prosecuted by precinct, the number of whites killed in New York 
City by the police, the number of non-whites killed, the amount 
of money paid by New York City in settlement of police 
misconduct cases, the number of white youth in juvenile 
detention centers.
    Some of my constituents told me the other day that they 
worked in juvenile detention centers and they have never seen a 
white youth there. Where do white youth who are in trouble go 
in the city? And is that another example of segregation, 
special treatment, that our youth are subjected to?
    So these are pretty common-sense questions. Most of you 
heard them before. I think they are imperative if we are to go 
forward and realize over a long term the benefits that have 
been gained by the crime reduction in the short term.
    The population of the city must be an ally and not an 
enemy.
    [The prepared statement of Hon. Major R. Owens follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.005
    
    [GRAPHIC] [TIFF OMITTED] T6931.006
    
    [GRAPHIC] [TIFF OMITTED] T6931.007
    
    [GRAPHIC] [TIFF OMITTED] T6931.008
    
    Mr. Burton. Thank you, Mr. Owens. We will get back to 
questions shortly so some of those questions you asked can be 
answered.
    Are there further opening statements by Members of the 
committee, further comments? On our side? Any on your side?
    Danny. Mr. Davis.
    Since I'm named Danny, sometimes I let it slip and use that 
first name first.
    Mr. Davis. Well, you know, we are so close together, 
Indiana and Illinois, and so we do that.
    Mr. Burton. OK, buddy.
    Mr. Davis. Thank you very much, Mr. Chairman. And I 
certainly would like to welcome and thank the witnesses, New 
York Mayor Giuliani, State Attorney Shorstein, and Police 
Commissioner Timoney for taking time to share with us today, 
and look forward to your comments and insights.
    It is my understanding that the panel, in all probability, 
will assert that the role of the Federal Government is not an 
appropriate one in much of the crime policy area. However, the 
approach to fighting crime is an issue that should not be 
overlooked.
    I maintain that an individual is innocent until proven 
guilty, and this should be kept in mind at all times. However, 
oftentimes civil liberties have been threatened at time by 
police misuse, abuse, and misconduct. I know that in my own 
hometown of Chicago, IL, we have had several cases of concern 
where it is evident that there is a deepening crisis of police-
community relations.
    Names like Jeremiah Mearday, Jorge Guillen, and Andrew 
Sledd come to mind as only a few. I know that many times those 
in the African American and Latino communities are weighed down 
by the burdens of danger and fear. Our communities are visited 
with the plagues of crime and drugs. As we continue to struggle 
to overcome these plagues, we are further weighted down by an 
even-more devastating epidemic of police brutality.
    This has caused a rising tide of disaffection and mistrust 
in our community justice system. Not only does police brutality 
directly threaten our life and safety, but it also destroys the 
trust and cooperation between communities and police that is 
necessary if we are to effectively address the problems of 
crime and drugs and justice.
    We also need to address the issue of new controls on those 
who engage in police brutality and misconduct. In Chicago, for 
example, there are over 8,500 complaints filed of excessive 
force from 1993 to 1995. And almost three-quarters of the cases 
were never resolved.
    The failure of current police procedures to address the 
issues of alleged police brutality have been documented well in 
community forums, hearings, and the newspapers.
    I'd like to submit, Mr. Chairman, some of these articles 
for the record. I also, again, want to thank the witnesses, 
indicate that we look forward to their testimony, and I trust 
that at the end of the day, not only will we have gleaned 
information relative to our ability to fight crime and reduce 
criminal activity, but hopefully, we can also find a way to 
create a more harmonious relationship between those whom we 
expect to enforce the law and those who must abide by it.
    Thank you very much, Mr. Chairman, and I look forward to 
your testimony.
    [The prepared statement of Hon. Greg Walden follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.009
    
    Mr. Burton. Thank the gentleman.
    Mayor Giuliani, welcome. We are looking forward to your 
statement. You might want to even allude to some of the 
questions that have been asked so far. We will have a question-
and-answer session after your opening remarks.
    Mayor Giuliani.

     STATEMENT OF RUDOLPH W. GIULIANI, MAYOR, NEW YORK CITY

    Mayor Giuliani. Thank you very much, Mr. Chairman, members 
of the committee. I appreciate the opportunity to discuss with 
you some of the things that are going on in New York City and 
how we can improve the relationship between city government, 
State government, local government, and the Federal Government.
    As I think you all know, New York City is the Nation's 
largest city. We are also the world's most diverse city; 100 
languages or more are spoken in the city of New York. Every 
racial, religious, ethnic group and subgroup is represented in 
the city of New York. And it is a source of a lot of 
challenges, obviously, but of probably the greatest strength 
that the city has, that people of so many different 
backgrounds, so many different points of view, religions, 
cultures, join together in one place.
    And it gives the city a vibrancy. It gives the city a 
culture. And it offers really a proving ground for solving 
human problems that's probably on a scale unmatched anywhere. 
Although, in many, many ways, New York City is very much like 
every other American city. It goes through the same sets of 
problems, the same sets of difficulties. The scale of our 
problems is sometimes larger. And sometimes when we have 
solutions, the scale of the solution has to necessarily be even 
larger.
    When I became mayor of New York City, I believed very, very 
strongly that the city of New York was in a tremendous crisis. 
We had lost 320,000 jobs in a 2\1/2\-year period. That was the 
largest job loss we had since the depression.
    If you looked at the city from the point of view of the way 
people looked at it from outside the city of New York--and many 
people shared that view inside--the city was thought of as the 
crime capital of America, and the welfare capital of America. 
It was thought of as a place that was too frightening for 
people to come to. And it was thought of as a place that did 
not offer people opportunity.
    I tried very hard in the 5\1/2\, 6 years to turn that 
around. We began with crime. We began with crime because it was 
the most basic problem that we had to solve. Until people can 
feel reasonably secure about their well-being, then nothing 
else can work. Schools can't work; businesses can't work. 
People want to leave.
    There was a poll taken in 1993, which is the year I ran for 
mayor, in which about 70 to 75 percent of the people in the 
city said that if they had a choice, they would rather live 
somewhere else. That represented the views of the poorest 
people, the richest people, the middle-class people. Roughly, 
all shared that same view.
    Now, those numbers have roughly been reversed. That still 
means that there are 20 to 30 percent of the people that 
haven't felt the opportunity, haven't felt the change, still 
feel alienated. And it's our job, city government, and all of 
ours, to reach them and to see if we can make them share in the 
turnaround that has taken place.
    But it is a substantial turnaround. And I'm going to focus 
on one or two aspects of it.
    We have talked about crime. In the area of crime, the city 
of New York really has had a great deal of success based upon 
many things. I'm going to emphasize three of them as things 
that can be replicated elsewhere, and much of which is being 
done elsewhere. It isn't just unique to the city of New York: 
the CompStat program, the broken windows theory, and drug 
enforcement. I believe that those are the three main reasons 
why crime is down as dramatically as it is.
    The CompStat program is a program of measuring crime every 
single day. We have 77 police precincts in New York City. Every 
single day we gather all of the crime statistics from each one 
of those precincts. They go into a computer program. And then 
on a weekly, monthly, regular basis they can be analyzed. So we 
can determine if crime is going up or if crime is going down. 
And if it is going up, why? And what has to be done about it.
    It allows for two things to happen. It allows for very, 
very intense strategic planning to take place so that in a city 
as large as New York, 7.5 million people with sometimes as many 
at 2 to 3 million visitors, you can focus on where the increase 
in car theft is taking place, where the increase in mugging is 
taking place, where the increase in rapes are taking place. And 
then you can develop strategies for reducing it before it 
becomes a major problem.
    In the past, crime statistics were used after the fact. We 
looked at crime statistics a year after the crimes actually 
took place. Now we look at the crime statistics essentially the 
day after the crime takes place so that we don't let crime get 
out of control and that we can bring about crime reduction.
    That's played a very, very large part in the crime 
reductions that have taken place.
    The second is the broken windows theory, which simply means 
that you cannot allow things to fester for long periods of time 
that you might regard as small things.
    Senator Moynihan described this in 1993 with the phrase 
that always stuck in my mind. He gave a speech in the city of 
New York at a time in which we were averaging 2,000 murders a 
year, which had become records, even for the city of New York. 
And he said that we were engaged in a process of defining 
deviancy down. What he meant by that was we were looking at 
deteriorating standards of human behavior: graffiti, street-
level prostitution, street-level drug dealing, aggressive 
behavior on the streets. And we were ignoring it because we 
felt we had no capacity to deal with it, that we had more 
important problems to deal with.
    So we were finding excuses and rationalizations for 
deteriorating standards of behavior. He called it defining 
deviancy down.
    It seemed to me, when I listened to that, and I was 
planning to run for mayor then, that we had to, essentially, 
just reverse the ship. Rather than defining deviancy down, we 
should set higher standards. And we should continually try to 
ask people to act better, to act better toward each other, to 
be more civil. And if we did that, we would start to ultimately 
affect even the more serious crime.
    Professor Wilkens, of Harvard and later Northwestern and 
other universities, wrote a book about this about 25 years ago. 
He called it the broken window theory. It meant if you have a 
building and somebody breaks a window and you say to yourself, 
I'm too busy with my business, I'm too busy with everything 
else to worry about that one broken window, it is very likely 
that in a short period of time somebody will break another 
window and another window. Eventually, they will break all the 
windows in your building, and your building will fall down 
because you thought the first problem was so small you didn't 
have to deal with it.
    On the other hand, if somebody breaks your window and you 
fix it right away, and you find the person who did it, and you 
make it clear to them that this is unacceptable behavior, that 
you can't destroy property of other people, and this is an 
important thing, then you are probably going to save your whole 
building. And if you keep fixing those windows right away, 
eventually, they will get the point.
    So other cities that tried the broken window theory before 
New York, smaller cities, by and large, cities with populations 
of 100,000, 120,000, 150,000. In 1994 I put that theory in 
place in the largest city in America. I was faced every time we 
did with tremendous cynicism as to whether it could work in New 
York. New Yorkers love to say, ``It can't work here.''
    And the fact is, it has worked better in New York now than 
in some of the smaller cities. And it means that we are 
improving our standard of behavior.
    I have some charts. If I could show you these things in 
charts, it may actually illustrate things even more effectively 
than a lot of words.
    The first chart is a chart of the total FBI index crime 
complaint. And what it demonstrates is that in 1998 New York 
City had the lowest level of crime since the FBI started 
measuring crime; 1968 was the first year they began measuring 
it. And that crime decline represents about a 50 percent 
decline since the time that I have been in office.
    And 1998 was the safest year that New York City had since 
before 1968.
    The second one, which is maybe even more dramatic, because 
it is the area of crime that unfortunately you can measure the 
most accurately, murder, New York City, as I said, was 
averaging about 2,000 murders a year in the early 1990's. In 
fact, we hadn't had a year with less than 1,000 murders at any 
time in the 1970's, 1980's, or 1990's. Last year we had 629 
murders, which was the lowest number that we had since 1966.
    For example, Mr. Davis, and this is not meant in any way to 
create a conflict with Chicago. I think you have a great mayor, 
and there are things you are doing in your city that I wish we 
were doing in our city, like the reform of the school system, 
which I think is a model for the rest of the country.
    But Chicago, which has half the population of New York 
City, had 700 murders last year. And that was a decline. New 
York City, which has double the population, had 629.
    So the city has established itself, not only as the safest 
large city in America, but when you compare cities with 
populations of 100,000 or more, I believe we are now city No. 
167. So a city that was thought of as the crime capital is now 
seen as a place that has, to a large extent, become a much 
safer place.
    Crime statistics for a whole city, however, are hard to 
measure. And I think Mr. Owens made that point before. I think 
that you have got to look at individual neighborhoods--you 
almost have to look at individual blocks. The CompStat program 
that we have allows us to do that.
    Washington Heights in Brooklyn--in Manhattan, rather--is an 
area that used to be the cocaine center for the city of New 
York and for much of the Northeast. I had the benefit, before I 
was mayor, of being a U.S. attorney, for 5\1/2\ years. So I 
guess maybe I had a preparation in understanding where the 
problems were.
    But this was a community that was at the center of the 
crack epidemic for much of the Northeast and much of America in 
the early 1980's. The crime rates in the 33rd and 34th 
precincts in Washington Heights were among the highest. And it 
was one of the areas of intense activity when I was a U.S. 
attorney, including an area in which we lost police officers to 
drug dealers who slaughtered them in the line of duty.
    I'm very, very happy to report that, you know, crime is 
down in Washington Heights by even more than in the rest of the 
city. Washington Heights has an 80-percent decline in murder; 
the city has a 70-percent decline in murder.
    In 1993, the year before I came into office, there were 75 
people murdered in Washington Heights. Last year, there were 
15. In my view, Mr. Owens, 15 is too many, but a lot better 
than 75 of 1993.
    And the same thing is true for overall crime decline. It is 
down 51 percent. It means the people in Washington Heights, and 
that is a multi-lingual, diverse community, now can live in a 
lot more freedom, a lot more liberty, can pursue their own 
opportunities, and have a much different quality of life than 
they had back in 1993.
    One other community, which is in East New York, the 75th 
precinct, which I know Mr. Owens knows well--I picked that 
precinct because I knew you were going to be here and I wanted 
to show you the results in the precinct. But also because in 
1993 that precinct led the city in murders. It had 125 murders 
in that one police precinct in the city of New York.
    Last year, it had 41, for a decline of 67.2 percent, which 
is a major reduction in crime. And I thank God that as I talk 
to you now this year, there haven't been any, which we hope 
continues for the rest of the year.
    And there hasn't been a period of time in which there 
haven't been murders for this long in that precinct for 
something like 35 to 36 years. And we hope that that continues.
    The point that Mr. Owens made before, I also tried to take 
a look at on a citywide basis and on a local basis, and that 
is, what is happening with the behavior of police officers?
    Are police officers becoming less restrained? Are they 
acting in an improper way? Are they using their weapons more, 
let's say, in order to produce for us these declines in crime?
    And I understand and share the shock and horror at the 
terrible incidents that take place when police officers act 
improperly, when police officers act violently, when police 
officers act brutally.
    When I was a U.S. attorney, I not only prosecuted drug 
dealers and prosecuted organized criminals, during my time as 
assistant U.S. attorney and a U.S. attorney, I prosecuted many 
police officers, police officers for corruption, police 
officers for brutality, police officers for acting in a 
criminal way--and feel that they have to be held to a higher 
standard.
    But we can't allow the understandable emotions that emerge 
from a horrible incident to cloud reality and to cloud truth. 
And we can't allow perceptions, if they are false, to overwhelm 
truth. Otherwise, we are really not advancing society.
    The reality is, and I think this may come as a surprise to 
a lot of people, that the New York City Police Department, as 
it has reduced crime, has even by a greater extent reduced its 
own use of weapons, reduced its own use of force. The New York 
City Police Department, as it matches up with other police 
departments in this country, it's one of the most restrained.
    In this city, for example, in Washington, DC--and again 
this is not meant at all, because I understand all of the 
internal problems. Some cities do one thing well and other 
cities do something else well. In this city, there is a six-
time greater chance that you will be shot by a police officer 
per capita than in the city of New York. In the city of Dallas, 
there is like a four-times greater chance.
    New York City is among the most restrained police 
departments in the country in the use of weapons and in the 
shooting of their guns. That doesn't mean that they can't make 
a mistake. That doesn't mean that some of them can't act 
criminally, which is tragic and unfortunate.
    But it does mean when that does take place, much like if a 
terrible murder takes place in New York City today, between and 
among civilians, I could--we all could--feed into the 
impression that murder is running rampant in the city of New 
York, or we can say to people, this is a tragic, awful thing. 
Justice should be brought to this situation.
    But the reality is that murder is down 70 percent. And 
whereas there used to be 125 murders here, there are now only 
15. Or the reality is that there have been 75, there now only 
25.
    So, I hope that offers some other way of looking at this 
because it is enormously important, where if we are going to 
have reality square with perception rather than having false 
perceptions rule us.
    Let me see if I can give you some of the reality of what 
has taken place in the last 4 or 5 years. While citywide 
arrests--if we could put that chart up--while citywide arrests 
have gone up to record highs, which is one of the ways in which 
we have also brought down crime, we arrest a lot of people, 
particularly drug dealers, police officers using their guns has 
decreased by 50 percent, by over 50 percent, almost 51 percent.
    And, just to give you the actual numbers, back in 1993, 
there were 212 people who were shot intentionally by police 
officers in the city of New York. That was a time in which we 
had 10,000 fewer police officers. We now have 10,000 police 
officers, and in 1998, there were only 111 people that were 
shot by the police.
    That's a per-capita decline of 67 percent. So, before 
people attack an entire police department and make it appear as 
if they are bringing about this level of record safety by 
shooting wildly, the reality is just the opposite. They have 
reduced dramatically, even more than they have reduced crime, 
the use of their weapons, the times that they shoot, and the 
times that they use violence with regard to effecting arrests.
    Can they do better? Yes.
    Should we avoid all of these incidents if we can? Yes. Yes 
we should.
    And are we trying to do that? The answer to that is also 
yes.
    The CompStat that I mentioned to you that measures crime in 
every precinct of the city based on an innovation of Police 
Commissioner Safir of a year and a half ago, now measures all 
civilian complaints, all reports of abuse. So when a precinct 
commander comes into the police department every 2 or 3 months 
and is being evaluated, in the 75th precinct, for example, with 
regard to what's happening to murders, what's happening to 
rapes, are there more car thefts, are there problems that the 
community is having from the point of view of crime, one of the 
things that is featured in that review is, have your civilian 
complaints gone up or down? Have your allegations of use of 
force gone up or down? If they have gone up, what are you doing 
about it? Is it a particular officer that is causing the 
problem? Is it a group of officers?
    So I think the reduction in the use of force by police 
officers, which is dramatic, comes about from deliberate 
policies that are intended to accomplish that.
    And I would be happy to answer any more or additional 
questions about that.
    I would like to touch on quickly, two other areas, other 
than crime, because I think it illustrates the ways in which we 
can cooperate together.
    One is welfare reform, which you mentioned before, Mr. 
Chairman. And then the other is the area of taxes.
    In the area of welfare reform, we have reduced the number 
of people on welfare by about 460,000 to 470,000 people since 
1995. We began our welfare reform program about a year and a 
half before the Federal welfare reform bill passed and the 
President eventually signed it.
    It has been enormously successful. And what we are doing is 
trying to substitute work for welfare every place that we can 
and in every way that we can. And if I could urge on you and on 
the Members of Congress, both with regard to crime reform and 
welfare reform, the maximum degree of flexibility that you give 
us is by far and without any doubt the best way to allow us to 
accomplish the reduction and the changes that are taking place.
    Our welfare offices by August of this year will all become 
job centers. Instead of the sign that used to be on the door 
that said Welfare Office--actually the sign used to say, Income 
Support Center--we are changing all the signs and we are 
putting up the sign that says Job Center. But it is more than 
just a sign.
    The purpose of that sign is to turn the people inside that 
office into employment counselors. And when you walk into a 
Welfare Office now in New York City, and you ask for welfare, 
out of compassion, understanding, and a much, much higher form 
of wisdom, we ask you: ``What kind of job would you like? What 
have you done? What's your work history?''
    If you have a work history, we try to followup that work 
history with finding you a job in the area in which you have a 
work history. If you don't have a work history, we try to 
create one for you so that you begin to have a work history 
because that is the only way in which you are going to get a 
job. And we are, to the largest extent possible, trying to turn 
our welfare offices into employment offices.
    The change has been dramatic. The welfare numbers are down 
below 700,000 since in the first time since the 1960's; we went 
to a million people on welfare in 1970 and virtually stayed 
forever. But the most dramatic change that I can't measure for 
you, and I would invite you to come and see it.
    I would invite you to come to the job centers, take a 
visit, have them take you around and talk to the people who 
work for the city of New York in the job centers now, the 
people who work for our Human Resources Administration. And 
what you will find is, that they now have a very, very 
positive, very refreshing outlook about their work, which used 
to be very depressing work 5 or 6 years ago.
    Just registering more and more people for welfare doesn't 
give you a sense of accomplishment. It gives you a sense of 
helping, but it doesn't give you a sense of accomplishment. 
Finding jobs for people, having competition between job centers 
that used to be welfare offices over who can find jobs and who 
can find them more quickly, and which jobs are the most 
lasting, creates a real sense of positive attitude. You are 
really helping someone. I think this is something in which we 
need to make further refinements, because a lot of the 
regulations that used to exist in the Federal agencies that 
administer welfare have not been changed, even though you 
changed the law.
    They still impose enormous mandates on us, enormous burdens 
that should not exist, and tremendous contradictions between 
the prior philosophy, which was largely to encourage people to 
be on welfare, and the present philosophy, which is, welfare 
should exist, it should be there, it should help people who 
need help, but our first endeavor should be to have people help 
themselves, that we should, in essence, fight hard to keep 
people from dropping out of the work force. Because if we do 
that, we give people a chance to take care of themselves.
    And although you changed the law, and the reform is taking 
place, some of the Federal agencies have not changed the 
regulation. So that creates a real problem, I think, not only 
for New York City but for a lot of communities in the city.
    And I will reserve my comments on taxes and some of the 
further comments that I have on some of the questions that came 
up
from you and from Mr. Owens, until later, when we get to the 
questions.
    But thank you very, very much for this opportunity to 
address these issues.
    [The prepared statement of Mr. Giuliani follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.010
    
    [GRAPHIC] [TIFF OMITTED] T6931.011
    
    [GRAPHIC] [TIFF OMITTED] T6931.012
    
    [GRAPHIC] [TIFF OMITTED] T6931.013
    
    [GRAPHIC] [TIFF OMITTED] T6931.014
    
    [GRAPHIC] [TIFF OMITTED] T6931.015
    
    [GRAPHIC] [TIFF OMITTED] T6931.016
    
    [GRAPHIC] [TIFF OMITTED] T6931.017
    
    [GRAPHIC] [TIFF OMITTED] T6931.018
    
    [GRAPHIC] [TIFF OMITTED] T6931.019
    
    Mr. Burton. Well, thank you, Mr. Mayor. I just hope that 
everybody in America gets a chance to go to New York and see 
first hand the fantastic results that have been achieved under 
your administration. I do not want you to take conventions away 
from Indianapolis, but at the same time, I do think people 
ought to be aware of what you have been able to accomplish 
because it is really sensational.
    I cannot tell you, my family and I were there visiting, 
along with some of our friends, and we had always heard that 
you couldn't be safe in downtown Manhattan. You get around 
Broadway, the porno shops and everything, you had to be very, 
very careful. And it was just the opposite. There was a 
policeman on every corner. They were courteous. We didn't' feel 
any danger whatsoever. And I was just amazed. I didn't think 
things could change that much.
    So you are to be congratulated.
    Mayor Giuliani. Come often and spend a lot of money.
    Mr. Burton. Spend a lot of money, yes. I don't have a lot 
of money, but I will come often if I get a chance.
    Mayor Giuliani. Whatever you can spend we appreciate. 
[Laughter.]
    Mr. Burton. All right. I do have a few questions I would 
like to ask, however.
    You said that you had 320,000 jobs lost in a 2-year period, 
and that's been completely reversed since your administration 
took office. Briefly, could you tell us how you did that?
    Mayor Giuliani. The turnaround in jobs, which I have in 
front of me here, is really based on many factors. I think the 
crime reduction has a lot to do with that. I think we were 
losing jobs because people were afraid to put their business in 
the city of New York. Or they were leaving the city because 
they were afraid.
    I also think we had a tax policy that was destroying the 
private sector. So one of the things that I began doing in 
1994, at a modest level and then increased dramatically as the 
city's fiscal health improved, was tax reduction. I reduced 
taxes by $34 million the first year, $200 million the second 
year, and now the tax reductions are at $2.4 billion.
    So we put money back into the private sector. The hotel-
occupancy tax was the best example of about 10 examples. We had 
a hotel-occupancy tax that was the highest in the country. We 
were, in fact, losing all of our conventions, not only to 
Indianapolis but to every city in the country, because nobody 
wanted to pay our hotel-occupancy tax.
    In the first year that I was in office, I persuaded the 
City Council and the State Legislature to cut it by 33 percent. 
And now we collect about $70 million to $80 million more from 
the much-reduced hotel-occupancy tax than we used to from the 
higher one.
    Mr. Burton. You know, I----
    Mayor Giuliani. And jobs are up dramatically in hotels and 
restaurants, by about 20 percent.
    Mr. Burton. That is a point that I hope everybody gets very 
clearly across this country. When Ronald Reagan cut taxes in 
the early 1980's, we were bringing in about $500 billion in tax 
revenues annually. And all I heard around here was, my gosh, 
it's going to cause the depletion of our tax revenues. But 
because it stimulated economic growth, we almost tripled the 
amount of tax revenues in 3 years. It went to $1.3 trillion 
from $500 billion.
    And you make the same case. When you cut the taxes, you 
brought more industry and business into New York City, and 
therefore, you brought in more tax revenue because there were 
more people producing taxes.
    Mayor Giuliani. One of the things that we are trying to do 
now, is to eliminate the sales tax in the city of New York. And 
we have persuaded the State legislature to eliminate it on 
clothing purchases of $110 or less, which will help the 
citizens in the city who are the poorest. It's a big burden on 
them.
    But eliminating the sales tax on clothing would be the best 
jobs program that we could possibly create. Much healthier than 
the jobs programs that used to come out of Congress and that 
used to be forced on cities and States, that I used to 
investigate as a U.S. attorney and put people in jail for 
defrauding.
    And a jobs program that says, no sales tax in the city of 
New York means 20,000 more jobs, 25,000 more jobs in department 
stores, retail stores, outlets. And those are good entry-level 
jobs when you are going through a welfare-to-work change in New 
York City or in America.
    The tax reduction can help. It can be the most effective 
form of a jobs program.
    Mr. Burton. You just had a moratorium for 1 or 2 days, 
didn't you, on sales taxes in New York----
    Mayor Giuliani. We had a moratorium--as part of the effort 
to convince the State legislature to eliminate the sales tax on 
clothing purchases, we did four pilot programs, 4 weeks over a 
2-year period in which we eliminated the sales tax or we 
eliminated at a certain threshold level. And in those weeks, 
sales increased from 50 to 250 percent in our stores.
    The main reason that I want to do it is in order to produce 
more jobs. If the store could count on an increase of 10, 15, 
25 percent more in revenues, it can hire more people. And 
therefore, the transition we are going through, 450,000 fewer 
people on welfare, the growth of 300,000 private-sector jobs 
during that same period, we could match the reduction with the 
growth in jobs.
    Mr. Burton. So by reducing the sales tax during that brief 
period, you increased from one- to fivefold the amount of 
people that were buying products in New York City.
    Mayor Giuliani. Absolutely. And that offered the--it was a 
very hard sell for a lot of reasons internal to the politics of 
New York City, which is not all areas of the State can reduce 
the sales tax or eliminate it. But we at least got the 
elimination of the sales tax on clothing purchases of $110 or 
less.
    What we are trying to get, just do away with it completely 
on clothing, and we could see a big jump in employment.
    Mr. Burton. I see my time is running out. Let me just get 
back to the issue I wanted to talk to you about in general, and 
that is crime. What can we do at the Federal level in Congress 
to assist you in helping continue to bring down those crime 
rates and those crime statistics in New York City?
    Mayor Giuliani. The more of what you do in the area of 
block granting and discretion given to local communities, the 
better. When you did the crime bill, you made a change that was 
very important to the city of New York. You allowed us to 
include civilians in the hiring of police officers. That was 
enormously important to us because we had a lot of police 
officers, but we needed civilians.
    That kind of flexibility is important, and the more often 
you can do block grants, the better off we are going to be.
    Probably the area where the Federal Government could help 
the most, and where there is the greatest lack, is in the area 
of drug enforcement, both from the point of view of using our 
authority through foreign policy and our ability to persuade 
much more effectively than we have. And in the area of border 
enforcement, assistance in terms of drug enforcement all 
throughout the country. That's an area where I don't think the 
same emphasis has been there that used to be there, 
particularly with making it a major priority of our foreign 
policy.
    The State Department should be talking about drug 
enforcement and agreements with countries about reducing the 
crops and the trans-shipment countries cooperating with us. 
They should be talking about that as much as they are talking 
about international trade, border disputes, because it is as 
important to our future and to our children's future as any of 
the other things that we are engaged in.
    And after all, foreign policy is the art of trying to 
enforce what is needed for your country into the policies and 
programs of other countries, through persuasion, if you can, 
through, more than that, if you have to.
    Mr. Burton. Mr. Owens.
    Mr. Owens. Yes, Mr. Chairman. To stay on the high road, let 
us all recognize that tourism is one of those areas where we 
get back some of that tremendous amount of money that flows 
overseas to foreign countries. And we would like to see more of 
our money flow back to this country via tourists visiting.
    We will make a deal with you and recommend all the foreign 
tourists coming in that their second stop be Indianapolis. If 
you want a deal?
    Mr. Burton. How about 50-50? You take half, we take half. 
[Laughter.]
    Mr. Owens. It is important that we understand our big 
cities are the primary place that tourists go. They are major 
features of American culture. I would like to see our big 
cities survive. I would like to see our big cities thrive. I 
would like to see the experiments in diversity succeed and get 
good results. That is the reason I want to engage in this 
dialog with you, Mr. Mayor, because we have a problem in terms 
of perception, you know.
    When I perceive smoke, there is fire somewhere. The reality 
is that there is fire somewhere.
    We ought to take perceptions into consideration, knowing 
full well that they don't really reflect reality, necessarily. 
But the perceptions are important.
    Dealing with perceptions may be over-exaggerations based on 
highly visible, atrocious cases. When someone is shot down with 
41 bullets fired, you know, it sets off a chain reaction of 
emotions that is hard to contain.
    Would it cost much for the city to have a safety valve 
through an effective civilian-review board? This is not 
anything new. You have heard this proposition many times. And 
mayors before you have heard it many times.
    A civilian-review board, which is effective because the 
people feel it is really going to reflect the decisions of the 
civilians. That you don't have a veto by the police 
commissioner which abrogates the whole thing, you know. Nobody 
has the faith in the civilian-review board that has veto by the 
police commissioner or that has its budget greatly reduced or 
to be ridiculed by the mayor.
    So a low-cost remedy for perceptions that may get out of 
control, it seems to me, would be a civilian-review board.
    On the appointment of a special prosecutor, it is just 
common sense to say that district attorneys work with police 
everyday. The likelihood that they are going to be objective in 
the prosecution of police is nil, I mean, as hard as they may 
try.
    Our former colleague here, Elizabeth Holzman, was district 
attorney of Brooklyn, she set up a special unit to investigate 
police-brutality cases. And they put 5,000 policeman around her 
office the next day.
    The police demonstrated--5,000--around her office. To give 
you a visible markup of what that kind of intimidation can do. 
So special prosecutors for these cases seems to me a reasonable 
remedy. And we have been asking for this for the last 25 years.
    Let's have dialog and move on with it.
    The residency requirement. Now towns and cities across the 
Nation have residency requirements. In New York State, there 
are residency requirements in many counties and cities. But New 
York State Legislature discriminates against New York City and 
will not let them have home rule and impose a residency 
requirement, where you reduce the likelihood, or you greatly 
help the situation, by having more police who live in the 
cities, live in the neighborhoods, and are not suspected by the 
population of treating them with contempt because they come 
from outside. They make all kinds of remarks. They really don't 
know in many cases the culture, etc.
    I think three of the policemen in the Amadou Diallo 
shooting were from outside of the city. That strikes me as 
strange. And also, they were mostly young people. The oldest 
was 27, and so they have life and death decisionmaking over 
people in the streets. And it was a very young group--
inexperienced.
    One of them came from the New York, East New York precinct 
that you just mentioned. And he shot a young man out there, and 
that young man had been allowed to bleed to death. And he had 
no life-threatening wound, but they didn't treat him right 
away. So he bled to death.
    All of these facts examined by the public, it adds up to a 
certain set of perceptions that are very serious. So could we 
not deal with that?
    And then I asked for some statistics that you might provide 
us with. Obviously you have the statistics so, by precinct. So 
people who complain that we are getting more parking tickets in 
our neighborhood than they are in other places, and other parts 
of the city are allowed double parking. Nobody ever gives them 
a ticket. But we have all these tickets. The number of cars 
towed away as people try to reach their quotas in cars towed 
away, to create more revenue for the city. It is greater in our 
neighborhoods than they are. The number of youths arrested and 
hassled on the street corners are greater, etc., and some of 
the other questions. I will submit them to you.
    And then most of all, the question of you must deal with 
the fact that whites are almost never the victims of police 
brutality, or certainly police killings. We have very few 
records of whites being victims. And that creates a perception 
which you have to deal with also.
    Mayor Giuliani. That was a lot to deal with at one time, 
but I'll just try, and I'll submit answers----
    Mr. Owens. Mr. Mayor, if you need more time when the light 
goes out, go ahead and finish. [Laughter.]
    Mayor Giuliani. The first thing I can assure you, although 
this I do not have the statistics on, that people throughout 
the city of New York feel they get too many parking tickets. I 
get that complaint--I do a radio show every week between 11 and 
11:45 on WABC, a local station in New York. And one thing that 
can be said, is fair, impartial, equitable, and across the 
board is we give out a lot of tickets all over the place. And 
they all blame it on the mayor. Every community, ethnic, 
religious, racial of all different kinds and mixed complain 
about parking tickets.
    But I honestly don't know, I have never looked at, which I 
get so many complaints about it, I just have an intuitive 
feeling that that goes on----
    Mr. Owens. They do collect statistics by precinct?
    Mayor Giuliani. Oh sure. I'll get that for you.
    Let me take up a few of the things that you mentioned. 
First of all, the percentage of police shootings, and we have 
gone back to 1991 to 1998. But I can assure you, and I will 
submit the statistics to you, that it pretty much breaks out 
about the same every single year.
    Over the last 7 years, when there has been a police 
fatality, police shooting that ended up in a fatality, about 50 
percent of the victims have been black, about 13 percent have 
been white, about 36 Hispanic, and about 1 percent Asian.
    Now, when you look at shootings in society, in other words, 
what is going on in New York City, that is almost exactly the 
same as the percentage of shootings that take place in the 
population.
    Over that same period of time, 49.5 percent of the people 
who were murdered in New York City were black, 35 percent were 
Hispanic, and 11.6 percent were white, and 2.5 percent were 
Asian. And the reality is that as a percentage, police 
officers, slightly more, actually shoot white people than they 
are shot in society, if you understand what I am saying. I can 
give you the chart.
    Then if you look at people arrested for murder, 54.5 
percent arrested for murder between 1991 and 1998 were black, 
35 percent were Hispanic, 7.5 were white, 2.6 were Asian, and 5 
percent are unknown. And that spans the administration of two 
different mayors, Mayor Dinkins and myself.
    So when you try to take a look at police officer shootings, 
you say to yourself, well, a police officer is shooting blacks 
in a higher percentage than the shootings are taking place 
throughout the entire city, the answer is no, it is about 
exactly the same.
    Mr. Owens. The statistic I asked for accidental shootings, 
not criminal cases----
    Mayor Giuliani. I will submit this all to you, but I can 
assure you these numbers work out about the same. And if you 
will look at the raw numbers, that means that from 1991 to 
1998, police officers in fatal shootings shot 100 blacks, but 
5,553 blacks were the victims of murder during that period of 
time. Both worked out to about 50 percent.
    So it doesn't look like police officers are shooting 
blacks, over a 7-year period, in a higher percentage than is 
happening in society. The only difference is, police-officer 
shootings of blacks or anybody else are infinitesimal in 
comparison with the number of times that somebody else in 
society murders them: 5,553 blacks were murdered in New York 
City; 100 were fatally wounded by the police. That is a very 
big difference.
    Mr. Owens. You are mixing criminal cases with accidental 
shootings of victims like Amadou Diallo, Eleanor Bumpers, and 
the people who obviously were not criminals.
    Mayor Giuliani. The percentage goes down even more 
dramatically. It goes in the other direction.
    Mr. Burton. Let me interrupt just a second, Mr. Owens. We 
will have a second round of questioning if you would like to 
have it. But why don't we let him complete----
    Mayor Giuliani. On the civilian-review board, we do have a 
civilian-review board. I have increased its budget over the 
last 2, 2\1/2\ years. I have increased the number of 
investigators that it has. Not only that, we just added 13 
senior investigators to the civilian-review board so that we 
could have a much higher level of investigatory talent there. 
They are disposing of their cases about three times as fast as 
they have in the past.
    And, the number of civilian complaints in the city is no 
where near the all-time highs that we used to have in the mid-
1980's of 6,000 and 7,000. And between 1996 and 1997, which is 
the last statistic that I had, they actually went down 13 
percent.
    So I think the civilian review board, which is civilian 
controlled, not police controlled, independent, is doing its 
job more effectively than it has in the past. I don't agree 
that they should ultimately have the disciplinary authority. I 
think they can make the recommendation. I think you are going 
to destroy a police department if you take the disciplinary 
authority away from the police commissioner.
    And this police commissioner, police commissioners say for 
prior police commissioners in New York City, have not been 
unwilling to dismiss police officers. We had a very tragic, 
unjustified killing in New York City by a police officer named 
Livotic. And he was acquitted, you might remember, by a court 
in the Bronx. He was dismissed by the police commissioner. So 
the police commissioner has shown that he has dismissed many, 
many people on civilian complaints that turn out to be 
justified.
    Then when you ask me about residency, I agree with you that 
the Police Department of New York City should be representative 
of the city of New York. It is better that it be 
representative.
    We have done everything within the law to allow us--we have 
done things that my predecessors didn't do. First year that I 
was in office, the present police commissioner, who was then 
the fire commissioner, gave 5 extra points to people who live 
in the city of New York for taking the exam, and for taking 
them into the police department. We increased the residency; we 
increased the percentage of residents.
    The only thing I have to tell you, and this was reflected 
in an article in the New York Times this week. There is no 
connection at all between police misconduct and residency. When 
we look at police complaints, and this I find, according to the 
Times article, is true of police departments throughout the 
country, there is no connection between residency and police 
officers acting properly.
    And in fact, for some reason that I can't quite explain, 
when we look at police complaints, we actually get more 
civilian complaints against resident police officers than we do 
against non-resident police officers by about 10 percent.
    So I don't know, even if we achieve residency, is this 
really the answer to a police department being more courteous 
and more respectful either in New York or in the other cities 
that appear to have the same experience.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I would like 
unanimous consent to put two pages in the record here.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.020
    
    [GRAPHIC] [TIFF OMITTED] T6931.021
    
    Mr. Horn. Thank you very much. These are resolutions of the 
National Association of Counties Board of Directors and 
appropriate committees.
    One concerns resolution on early childhood development 
programs, such as establishing a flexible Federal program that 
allows counties and States to develop home visitation programs 
for children and their families, including prenatal care. And 
there is a whole series of other worthwhile things.
    The second resolution is the resolution on services for 
emancipating foster youth. And among other things, it would be 
permitting the States and cities to extend Medicaid to children 
up to age 22 who are in foster care but left the system at age 
18 and to youths who were in assisted adoptions.
    This is a predicate to a book review that appeared in the 
New York Times back in May 10, 1998, headed ``Thugs in 
Bassinets'' and the book, ``Ghosts From the Nursery: Tracing 
the Roots of Violence.''
    It is a fascinating book in terms of what is affecting the 
young people in the first few months through 3 in a 
neurological sense of absolutely having no objection to violent 
behavior. And what needs to be done in the school system and 
the health system, in our cities, in our rural areas is to work 
with that type of child.
    And I just wanted to put that in the record, and ask then 
another question, which I have an interest in this since I was 
a small person. My mother was welfare director of the county 
for 25 years. She was also probation officer for 5 years. She 
was superintendent of the county hospital for a number of 
years.
    So I grew up with these problems. It is rather fascinating 
what has happened in America. We have a lot of very well-
meaning people that try to help young people, but some of this 
is, without question, psychological in terms of the behavior of 
the completely amoral behavior in killing each other and not 
having one sign of remorse.
    That leads me to another question, which I have long 
advocated, as an educator, and that is that the neighborhood 
schools should not just relate to education but also to the 
city's or the county's health services, to the city or county 
recreation services so we could get one-stop service for both 
the children and the parents.
    I agree with you completely in praising the mayor of 
Chicago. He deserves great praise. I think the major mayors of 
our cities and the major county executives ought to have the 
education programs under them. Now, in 1975, when I was vice 
chairman of the U.S. Commission on Civil Rights, we went to New 
York, held 1 week of hearings on the school system.
    Three of us were university presidents at the time: Father 
Hesburgh as chairman, myself as vice chairman, and Maurice 
Mitchell of University of Denver. We were shocked to learn that 
in about the 1890's the State of New York had, in its wisdom, 
put a merit board over the hiring of various teachers in the 
New York schools and various administrators.
    I understand that, I am half Irish, and I know that a lot 
of my Irish ancestors barely went beyond the third grade. I 
guess in New York, they were able to teach the sixth grade for 
never having gone beyond the third grade.
    So the State moved in and wanted meritocracy. Well, that 
was all very well, but when you look at the assistant principal 
test, none of three college presidents on the commission could 
even get 50 percent of the answers. They might as well have 
been students of physics and chemistry. That had nothing to do 
with the job they are doing, which is mostly the disciplinary 
job and the counseling of younger people. I don't know if that 
law is still on the books and that New York has freedom in that 
then they didn't have before. That was the State merit board 
put in over the school system.
    So I would just like to know your reaction to the role of 
the mayor in education, getting those services in one place, 
and have you any thoughts on dealing with the violence that is 
some youths from bassinet on?
    Mayor Giuliani. Well, Mr. Horn, I believe that law was 
repealed, the merit law.
    Mr. Horn. Well, we criticized it.
    Mayor Giuliani. The fact is, that in New York, the mayor 
does not control the educational system. And that is true not 
only for New York City but all of the big cities in New York 
and most of the cities in the country. And it is a very, very 
big mistake.
    And the changes that have occurred in Chicago are the best 
example of what could happen. I had two votes on a board of 
seven, and could be outvoted at any time. You know, 4-3, 5-2. 
And therefore, have some indirect influence, but not the kind 
of control that you would have over a police department or a 
welfare system or a fire department. And you can't make the 
changes that you would like to make.
    You can't make sure, in the way you would absolutely like 
to, that the money is actually getting to the schools and the 
classrooms. I have tried innovative ways to do that, which 
maybe produce half the results you could have if you really had 
control.
    I'm sorry that Mr. Owens left because I wanted to describe 
to him--he was talking about how we don't have enough schools 
and we haven't built enough schools. Since I have been mayor, 
we have actually added 95,000 seats to the school system, which 
is the largest increase since the baby boom.
    I inherited a deficit of 78,000 seats. In other words, 
there were 78,000 places in which we had new students but we 
didn't have seats for them. And we have rectified some of that, 
not all of it. Could have done it a lot faster if I had control 
of the school system.
    And now, when I put money into the school system, and I 
have increased the budget dramatically of the school system--
but now when I put money in I try to tie it to performance-
based measures. We put $120 million more into what I call 
Project Read. In order to get that money, you have to give 10 
to 12 hours more of reading instruction to students.
    We have had 133,000 students go through it. Their reading 
scores have gone up by 60 percent. We are specifically 
restoring arts education to the public schools.
    So when I put money into it, it has to be in return for an 
arts program going in. We have now done that in 835 schools. 
And we are way ahead of schedule on doing that.
    But I have to almost set up, like a review committee, every 
time we do something because I have to make sure that the 
additional $100 million or $200 million has actually gone into 
the school system.
    I am fortunate to have a chancellor, Rudy Crew, who I think 
is the best in the country and is willing to take on the 
educational bureaucracy in aid of the children.
    The biggest problem that we face, however, is principal 
tenure. The chancellor and the superintendent who oversee the 
school system are all based on contracts that are performance-
based. However, they run a system that is a job-protection 
system. You cannot remove a principal who has tenure, no matter 
how bad the school performs, no matter how many kids have 
dropped out, no matter how many kids don't graduate. The 
principal is there for life, cannot be touched.
    And what I maintain is, that politicians who debate 
education have to stand on one side of the line or the other. 
Either you are in favor of a job-protection system or you are 
in favor of a school system, and it is about educating 
children. And that is a major debate we are having in New York.
    Governor Pataki is a very strong supporter of ending 
principal tenure, but there is an awful lot of resistance to 
it. And you can imagine where it comes from, which is the 
supporters of the status quo in education.
    Mr. Horn. Thank you. We will pursue that in our second 
round on a number of other issues.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Mayor Giuliani, it is a pleasure----
    Mr. Burton. Excuse me, I didn't see Mr. Davis. Pardon me.
    Mrs. Maloney. You are jumping over me.
    Mr. Burton. I apologize. I must be getting myopic. The 
gentlelady will be recognized, then you, Danny, after we 
recognize Mrs. Morella.
    Mrs. Maloney. Thank you, Mr. Chairman, and it is a great 
privilege to welcome the mayor from the great city of New York 
who has done a great deal to improve the safety of the 
residents of New York City, I might add, combined with Federal 
policies that banned assault weapons, passed the Brady Bill, 
helped get guns off the streets, yet sent over $800 million to 
the city of New York to hire more police officers and augment 
the Police Department's efforts. And we now have, I understand, 
a 24-year low in crime in the city of New York.
    I am very pleased with that, but I am sure that you agree 
that a local police force, in order to be successful, must 
enjoy the trust and respect from the community they serve. The 
recent tragedy has seriously damaged that trust. I am sure that 
all New Yorkers share your deep concern over the tragedy over 
the shooting of a 22-year-old, who was shot 41 times by four 
police officers.
    But the main problem here is that we have a serious problem 
and what are we going to do about it. I am sure, Mr. Mayor, 
that even though the number of police shootings have decreased 
in recent years, as you have pointed out with statistics, but I 
am sure you agree that the problem is beyond simple numbers.
    It is a problem now of broken trust by many of New York 
City's minority residents, a distrust that they feel toward the 
Police Department. I am really puzzled by the fact that you 
downplayed recommendations made by your own task force on 
police-community relations.
    And, Mr. Mayor, how do you respond to the fears of many of 
New York's minority residents that as the New York Times 
stated, people, ``are frisked on the basis of race.'' And what 
do you plan to do about restoring that trust? About alleviating 
those fears?
    I specifically would like to hear how you plan to respond 
to your own task force recommendation. I know that you 
responded to roughly 61 percent of their ideas. But in the area 
of minority recruitment, expanding the cadet force, the police 
oversight board that was passed by the City Council but was a 
stronger oversight board that you vetoed, you then enacted a 
weaker CCRB. You stated that it is funded, yet I have read some 
reports where it is under-funded by $1 million.
    In the area of minority recruitment, the city is 66 percent 
minority, yet the police force is roughly 30 percent. And why 
haven't you responded to this really serious, obvious disparity 
before this tremendous tragedy?
    I would like to ask you, specifically, about alleged 
selective responses to information requests by your Police 
Department. A Dominick Carter of New York 1 has alleged that 
Mr. Safir will not respond to his request for statistics, 
specifically the number of minorities on the street crime unit. 
If you could help get that number, that would be helpful.
    I really look forward to your comments.
    Mayor Giuliani. I look forward to my answers.
    I think Dominick Carter should directly communicate with 
the police department, rather than using me and you as the go-
between for information for the media. So I would suggest that 
Dominick----
    Mrs. Maloney. He says he has. He says he has asked but 
never received it.
    Mayor Giuliani. Yes, but I really don't think it is the 
role of a Member of Congress and the mayor to try to aid the 
media in getting information from the police department. So why 
don't we see if we can have him work with the police department 
to do that.
    I responded to the recommendations of the task force that I 
agreed with. And I put them into effect.
    I disagreed with certain recommendations of the task force, 
and certain recommendations of the task force were entirely 
unrealistic, like residency requirements. Residency 
requirements are set by the State of New York. They are set by 
the Legislature of the State of New York. I can't change them. 
They have been in effect for 25 or 30 years. And the political 
reality is they are not going to be changed because you would 
be asking legislators from outside of the city of New York to 
vote to get rid of jobs for their citizens.
    And I can't present them with a compelling case. I would be 
happy to present you with the same statistics that I gave to 
Mr. Owens. The reality is, you know--the difference between 
perception and reality, and the reason that we are all, we all 
pride ourselves on being educated human beings, is that there 
are times in which perception is correct and there are times in 
which perception is incorrect.
    And do you serve an incorrect perception by just pandering 
to it? Or do you tell the truth about it?
    And it seems to me we expand all of our horizons when we 
react to the truth as opposed to pander to incorrect 
perception.
    The reality is, in the same New York Times that I think you 
incorrectly quoted, and I will go back to that in a moment, 
that you cited, had an article this Sunday that pointed out 
that there is absolutely no connection between residency and 
proper behavior.
    And in our own statistics, in the New York City Police 
Department, we actually have a higher percentage of resident 
police officers who have complaints that are filed against 
them. And that appears to be, according to the New York Times, 
the experience of just about every other city that has similar 
residency requirements.
    So you can't make out, whether you like residency or you 
don't, given the political realities of life that we live in, 
you can't make out a compelling case to do away with residency.
    But having said that, here is what we have done that you 
didn't mention, in fairness to the work of the Police 
Department and my own work, and the work of the people who have 
tried to make a change here.
    We have done more to change residency than any prior 
administration----
    Mrs. Maloney. Mr. Mayor, my question was not about 
residency.
    Mr. Burton. The gentlelady's time has expired. Can we let 
the mayor finish because we are running short on time?
    Mrs. Maloney. My question was about residency.
    Mayor Giuliani. Oh yes it was. You asked me about the 
recommendation of the task force that I implemented and I did 
not implement. The major recommendation that I disagreed with 
and did not implement, was a recommendation that I impose a 
residency requirement. So if you would like an answer to the 
question, the answer revolves a great deal around residency.
    The task force, that you said, I did not implement their 
recommendations--one of the major recommendations that they 
made that I didn't implement was a residency recommendation.
    First of all, I can't impose residency.
    Mrs. Maloney. My question was minority recruitment, 
expanding the cadet force, the police oversight board, and 
restoring the trust--what are you doing to restore the trust 
between the minority community and the police department.
    Mr. Burton. Before the mayor answers, Mrs. Maloney, your 
time has expired. Let the mayor conclude his answer because we 
have other Members and the mayor is under time constraints.
    Mayor Giuliani. I think what we are doing to restore the 
trust of the minority community in New York City is precisely 
the same thing that we do for all communities in New York City. 
I don't have a separate agenda for the different communities of 
New York City.
    What we are doing to restore the trust of the minority 
communities in New York City is reducing murder in New York 
City by 70 percent. So that in a community that had 125 murders 
last year or 5 years ago, there were only 15 murders last year 
and none this year. What we are doing to restore the trust of 
the minority community in New York City is having employment 
rates that are the highest in 20 to 25 years. What we are doing 
to restore the trust of the minority community, we are seeing 
national businesses go into Harlem and other areas of the 
minority community that wouldn't go there in 30 to 40 years 
because they were too afraid to put businesses there because 
crime was so high.
    Crime is down now, national businesses are investing. What 
we are doing for the minority community in New York City is 
funding the New York City public school system at the highest 
level that it has ever been funded, producing reading and math 
score improvements for the last 5 years.
    But we are doing that for the whole city of New York. What 
we are doing for the minority community is making a Police 
Department that has reduced crime more than any in the country, 
become the most restrained in the country.
    Because over the same 5 years, something I didn't hear in 
all the things you said before, because the question is, are 
you feeding incorrect perceptions or are you creating correct 
perceptions. The correct perception is that the New York City 
Police Department, in the last 5 years, has actually a better 
record for restraint than it does crime reduction.
    It is more restrained by 67.2 percent. It has reduced crime 
by 50 percent. And when you compare your Police Department, the 
New York City Police Department, to the police department in 
just about every other major city in this country, the New York 
City Police Department is more restrained.
    So, yes, there are times in which there are tragic 
circumstances. And all of us in politics can do one of two 
things with those tragic circumstances. We can exploit them to 
feed misperception or we can try to learn from them, put them 
in proper perspective, and explain to people that although this 
was a terrible thing that happened, and the criminal justice 
system should answer it, we shouldn't use it to give people 
increased fears that they shouldn't have--any different than if 
there was a terrible murder today in New York City among 
civilians, which happens 50 times more than any encounter with 
the police, that we would use that to give people the 
misperception that crime is not down because there was some 
terrible murder involving four or five civilians.
    So that is what we are trying to do, deal with people 
honestly in order to create a situation of real trust, rather 
than pander to them.
    Mr. Burton. Mrs. Morella.
    Mrs. Maloney. Mr. Chairman, a point of personal privilege?
    Mr. Burton. We don't have the time to allow a point----
    Mrs. Maloney. Point of personal privilege, since it was 
alleged that I misquoted the New York Times to put the article 
in the record. I think that is legitimate if someone alleges 
that I misquoted to have the article put in----
    Mr. Burton. I will allow you to put the article in the 
record, without objection.
    [Note.--The document referred to was not supplied for the 
record.]
    Mrs. Maloney. Thank you, sir.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you.
    Thank you, Mayor Giuliani, we appreciate your passionate 
commitment to making New York City the shining city on the 
hill. You know, the District of Columbia Subcommittee, is one 
of the subcommittees of this Government Reform Committee, and 
we have been trying very hard to revitalize the District of 
Columbia with I think a great element of success, looking to 
some of the procedures and techniques and policies that you 
have employed: the CompStat, the broken windows, establishing a 
culture of civility, and cleanliness, and anti-crime.
    I want to pick up on the crime scene, and then, if I have 
time, go into the job-income support concept that you employed.
    I think throughout the country, violent crime has gone 
down. The difficulty is, the age of the perpetrator has also 
gone down, and the age of the victim has also gone down. Now in 
looking at your statistics, I don't know whether or not in the 
city you have compiled anything with regard to age and what 
that does show are probably a little less dramatic than the 
rest of the country. The crime reductions in New York City have 
been about five times the national average, but there have been 
crime reductions throughout the country and crime reductions in 
New York. Our victims are getting younger; our perpetrators are 
getting younger. But it isn't quite as dramatic as it is in the 
rest of the country. But we share the same problems.
    Then we can see an increased role in our society to begin 
to look at what is happening with our younger people and what 
their values are and what they are doing with their time.
    Mayor Giuliani. No question about it.
    Mrs. Morella. And you talked about increased flexibility 
for cities. I would imagine that you would give strong support 
to something like a youth development block grant that could 
bring Big Brothers, Big Sisters, Boy Scouts and Girl Scouts, 
all of those groups together?
    Mayor Giuliani. Enormously valuable programs. We have many 
of them in New York City. We have Police Athletic League. We 
have the Boys' Clubs and the Girls' Clubs. We do a lot to 
support them. They are enormously valuable.
    We have a program called Beacon Schools which we have just 
expanded to 81 schools in which we--I think Mr. Horn referred 
to something very much like it in which we use the school as 
the community school. And the school remains open until 11 p.m. 
The school is the place that not only the young people are 
educated, but the parents can come back for adult education, 
job training, language assistance. We try to make the--health 
services. We try to make the school the center of the community 
that needs rebuilding. And it is an enormously valuable 
program.
    The program was put in----
    Mrs. Morella. It would be good to see a correlation between 
those programs.
    Mayor Giuliani. And we have gotten money from the crime 
bill and other laws that you have passed that we have been able 
to use to expand those programs. And those are areas that could 
be very, very crucial collaborations. And we have been able to 
get the money more recently with not as many mandates attached 
to it as used to be the case before because the fact is this is 
true of every city in America. There is no one formula that 
works. And when you try to have a mandate, we then start using 
money in unwise ways just to get your money.
    The more flexibility you give us--give us money and say use 
it to try to improve the opportunities for young people--we are 
going to be able to use that money a lot more wiser than if the 
Federal Government tries to micromanage the program.
    Mrs. Morella. Which is a good reason for getting good 
people in local government to make sure they do use it wisely.
    With your income support plan, I believe in welfare reform 
and it appears to be working, but I have some concerns about 
people being able to make livable salaries, to earn livable 
salaries. I have great concerns about child care. I have great 
concerns about medical care for the children. I don't know 
whether you would like to comment on what you are doing to 
ameliorate that problem.
    Mayor Giuliani. New York City has an enormous 
infrastructure of services for people. We have a hospital 
system and this way we are unlike any other city. We own and 
operate 11 acute care hospitals and 7 long-term hospitals. And 
anyone in New York City can get medical service for free. And 
they get it, if no place else, in the public hospitals of the 
city, which account for about 23 to 25 percent of the hospital 
beds in the city.
    We have a vast array of services for young people, which we 
also provide in the schools. Most of our schools have health 
care facilities as well as public hospitals right in the 
neighborhood that can care for young people who do not have the 
ability to access hospital services. So we keep trying to 
expand it but----
    Mrs. Morella. How do you handle child care? It is so 
frightfully expensive and there don't seem to be adequate 
facilities.
    Mayor Giuliani. We have put a lot of money into our budget 
for day care. And when I said before that we require people on 
welfare to work, we don't require them to work unless we can 
help them find day care. So that, as part of the welfare-to-
work program, we have invested hundreds of hundreds of millions 
of dollars in day care. So that if a woman comes in, wants 
welfare, has two children, they are, let us say, 5 and 7 years 
old, and needs day care to help during the hours that the 
children are home from school, we will not require that woman 
to work unless we are able to provide the day care for her.
    And, at this point, we are able to do it. We are going to 
need more assistance, more money, when we start getting into 
further reductions in welfare. Up to this point, we have been 
able to afford it in our budget, with the help of the State, 
and the money that we get from the Federal Government.
    Mrs. Morella. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Mr. Mayor, 
let me again compliment you and all of New York City, for your 
crime reduction activity and the ability to reduce crime. You 
also mentioned, though, that in the process of doing so, you 
have also reduced allegations of misconduct or complaints 
against the police, that there has been a reduction in the 
number of instances where overt action is alleged. Did you put 
into effect any additional training activities or--how did you 
accomplish that?
    Mayor Giuliani. Well, the most dramatic and maybe the most 
reliable thing to look at are shooting incidents, fatalities, 
because they all have to be reported. There is a practice in 
New York City, which predates my administration, I am not sure 
exactly when it began, but it probably is one of the most 
helpful in bringing those shooting incidents down to very, very 
low levels, and lower than in most cities. Every single 
fatality, even if completely justifiable, goes before a grand 
jury. It has to be investigated criminally. And every single 
shooting incident has to be investigated with a formal report 
of what happened, why it happened. So it is treated very, very 
seriously. And that has probably helped a great deal.
    At the same time, we invest a lot of money in training. And 
we keep increasing it and improving it. And I mentioned before 
the CompStat program that we have. The CompStat program not 
only intricately measures crime at every single precinct in 
this city, on the same basis that we put emphasis on that, we 
look at the number of complaints in that precinct.
    So if we were reviewing the 75th precinct that we were 
looking at before, at the police department today, it would be 
an analysis of how many complaints have there been about police 
officers? How many complaints of use of force? We divide them 
into use of force or abusive behavior. And if they are going 
up, then the precinct commander is expected to describe: which 
police officer, is it a certain group of them, are they being 
trained, do they need retraining, do they need discipline? And 
the commander is expected to present a picture in which we have 
got to see those things start going down, otherwise, he or she 
is going to be removed. I think that is one of the ways.
    The other way that we did it is--the civilian complaint 
review board that was mentioned earlier was very, very 
inefficient. And there are many reasons for that including just 
the whole structure of it. It is a difficult process to start 
with. We have tried to improve it. We have put more people into 
it. We have hired more senior people. We have given them more 
resources. And they are doing their job better now. They are 
not doing it perfectly. They are never going to be able to do 
it perfectly, but I think they are doing it better now.
    Mr. Davis. Let me shift for a moment. In the past you have 
mentioned that the Department of Human Resources was going to 
develop a program where individuals who are known drug users 
and also are on public assistance, where their benefits may be 
paid to a third party contractor.
    Mayor Giuliani. Yes.
    Mr. Davis. Could you tell me how that would work?
    Mayor Giuliani. I can. It is a program that we are doing on 
a pilot basis right now with just a small number. The idea of 
it is we don't want the city, State, and Federal Government to 
be funding the drug trade. And, therefore, if you are a drug 
addict and you want welfare, you have got to show us that you 
are doing something about your drug problem. And, therefore, 
you have got to be going into treatment, serious treatment 
programs. You have got to be presenting us with a plan to do 
something about it.
    But if we are going to be required to give you money and 
you are not doing anything about your drug problem, we don't 
want to indirectly be handing that money over to the local 
heroin dealer or cocaine dealer, which is what you are doing. 
So what we will do is have a third party take over that money, 
make sure the money is spent on the children, is spent on food, 
is spent on the needs that the person has. For sure as heck, we 
don't want to be giving the money to an addict that then turns 
over $100 bucks or $200 bucks or $500 bucks to the local heroin 
dealer or organized crime. So that is the idea of it.
    But also it is part of the much bigger picture of trying to 
get much more intelligent, rigorous drug treatment programs 
than the unaccountable drug programs. And here is an area where 
a Federal mandate absolutely hurt us. And this is mostly the 
State of New York because they run our drug treatment programs, 
the city doesn't. We spend 60 to 70 percent of our drug 
treatment dollars keeping people addicted and we spend only 30 
percent in drug-free programs.
    Methadone maintenance is the treatment of choice in New 
York City. And the reason it is the treatment of choice, just 
speaking very candidly with you, is that Federal mandates give 
you more money more quickly and large industries have developed 
handing out methadone to people because it is a lot easier 
saying take your methadone than it is to put them into Phoenix 
House or Daytop Village or one of the places where you can have 
the possibility of drug freedom.
    Mr. Davis. Let me just ask is this a court ordered or court 
sanctioned--I mean the power of attorney, in effect, is what 
the individuals or the contractor receives over the person's 
money.
    Mayor Giuliani. No, it is something that you work out with 
the Human Resources Administration. It is part of a theory of 
the social contract, which is if you want benefits, then there 
are certain things that you owe society in return for those 
benefits. If you are not working and taking care of your own 
family and you are expecting everybody else to take care of 
your family, then we expect you to work as soon as you can. If 
you have a drug problem and that is the reason you are 
requiring the rest of society to support you, then you should 
be doing something about your drug problem.
    We shouldn't be sustaining your drug problem, the taxpayer 
shouldn't be sustaining your drug addiction for 20 years, 30 
years, 40 years and then when you multiply this out nationwide, 
the United States of America and the city of New York and the 
city of Chicago and elsewhere are supplying a lot of the funds 
for drug dealers, if we don't do something about it, right? So 
it is that really the attempt is to try to do something about 
it.
    And, finally, we are handing the welfare money to the drug 
addicts only because the drug addict has two or three kids that 
have to be supported. But if the drug addict is using the 
welfare money to buy the heroin, the kids aren't getting 
supported. We want the money to the place that it would 
actually help people.
    Mr. Davis. Thank you very much. And when you have generated 
enough data for a report, I would appreciate it.
    Mayor Giuliani. On that one, I would be happy to keep you 
informed. That is a new program, like the last 2 months, so I 
don't really have any. But I would be happy to keep you 
informed.
    Mr. Davis. Thank you very much.
    Mr. Burton. Thank you, Mr. Davis. Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman. Mayor, greetings 
to you. I congratulate you on the good work you have done in 
New York City. Coming from Arkansas, while I was U.S. attorney, 
there were a number of drug cases that we handled that 
originated and had suppliers in New York City. So I am 
delighted with the progress that you have made because it does 
impact a large part of our country.
    Yesterday I had an interesting debate at Georgetown Law 
School concerning mandatory minimum sentences with Judge 
Sporkin, who has been outspoken on mandatory minimums. I wanted 
to get your feedback a little bit. I understand you all have 
had a measure of success in New York City on crack cocaine and 
the street vendors in regards to that. And, of course, crack 
cocaine, you have a 5 gram level for mandatory minimum for 
possession of crack cocaine in that amount.
    Could you comment on your view of mandatory minimums and 
the impact it has had on crime in your city, both firearms and 
drugs and, specifically, crack cocaine?
    Mayor Giuliani. Mandatory minimum sentences, I think, can 
be enormously helpful in creating a certainty of punishment if 
you are caught which then has a much bigger deterrent impact 
than the calculation that many criminals, particularly drug 
criminals, can make that, No. 1, they can find a way to beat it 
and, No. 2, if they don't beat it, they can find a way to 
convince the judge or, eventually, the Department of Parole or 
whatever to let them out of prison in a very short period of 
time. I think it has a very dramatic impact, particularly in 
the drug area, which, after all, is professional crime.
    I think you know this as well as I do. I mean, drug 
criminals know the criminal penalty process better than U.S. 
attorneys, assistant U.S. attorneys, or lawyers. I mean, they 
have it memorized because it is their business. We used to have 
drug dealers in New York City that would know precisely the 
levels at which you could plead and how much drugs you had to 
have in your pocket. And then they would go back and replenish 
it. But if they got caught, they could always claim to be a 
low-level drug dealer. But on a given day they would be selling 
five times as much, but they would never appear to be doing 
that.
    So having these mandatory minimums, which convinces someone 
that you are really going to have to do actual time and it is 
going to be 5 years or 10 years, I think can be very, very 
helpful in playing itself out in professional criminal areas 
because they will calculate what they are doing based on it. 
And I think actually they are more necessary for State courts 
than for Federal courts. Because with the sentencing guidelines 
that the Federal courts have, you come pretty close to having 
mandatory minimums and maximums and a judge's discretion is 
restrained. In a place like New York where there is no 
restraint on discretion, they would be enormously valuable. The 
areas where we have them, we get a big impact. The areas where 
we don't we are very much in need of it.
    Mr. Hutchinson. If I recall correctly, while you were the 
Federal prosecutor years back, that you advocated prosecutions 
even at the Federal level of street pushers----
    Mayor Giuliani. Yes.
    Mr. Hutchinson [continuing]. Because believing in the sort 
of broken window theory that you have got to prosecute crime at 
all levels. Are we having the right balance in terms of our 
Federal law enforcement going after the kingpins and the big 
dealers versus the street pushers?
    Mayor Giuliani. You should do more street-level 
prosecution. U.S. attorneys should. That was a very valuable 
exercise for me and my office as a U.S. attorney. What we did 
was we would take in a small number, because that is all we 
could really do, of street-level cases, we started it in the 
Lower East Side of Manhattan. It was called ``Federal Day.'' We 
would never let the drug dealers know the day of the week it 
was going to be. Some days it would be a Wednesday; some days a 
Thursday; some days a Friday.
    But when they came into Federal court with the ability to 
focus more on an individual case, they tended to have high 
bails so they didn't go right back out on the street. They were 
getting 10- and 15-year sentences for what they would spend a 
year in jail in the New York State system for, it had a massive 
impact. It was a tremendous learning experience for me, because 
after we did it for about 3 months, all of the other crimes in 
the Lower East Side went down by 30, 40, and 50 percent. It 
taught me firsthand that if you put the emphasis on drug 
enforcement, you can reduce all other crimes.
    Mr. Hutchinson. Let me see if I can get a couple of quick 
questions in. The FBI was started in the early 1980's being 
engaged in the drug war and in drug prosecutions, supporting 
the DEA and our Federal effort. Do you see the same commitment 
on the part of the FBI today as was initiated in the early 
1980's? And, second, I want to ask a question. Do you believe 
the drug war is winnable?
    Mayor Giuliani. That is an excellent question because I 
think the right answer to that is it is winnable to the extent 
that the reduction of any social problem is winnable. It is as 
winnable as turning around welfare, which nobody thought you 
ever could do and now the successes are faster than I even 
believed was possible, and I was in favor of turning it around. 
If we have the national will, we can--maybe we can't win the 
war on drugs and maybe that isn't the right way to describe it. 
We can vastly reduce the problem of drugs. We could reduce the 
problem of drugs as fast and as quickly as we have turned 
around welfare and we need it even more.
    But the national will isn't there and--no, I don't see it 
as a lack of commitment on the part of the FBI or the DEA. I 
think they have tremendous commitment. I think this has to be 
something that goes to very top. I mean the President of the 
United States has to lead the effort against drugs if you want 
to affect our foreign policy. If you want us to enforce our 
priorities on other countries, which is what we are really 
talking about, then it has to be a major obsessive concern of 
our foreign policy apparatus. They should be as concerned about 
that as they are wars in various parts of the world, settling 
border disputes, dealing with international trade because, 
frankly, if we don't turn around the problem of drugs, then, 
you know, we are going to lose a very, very large percentage of 
our young people.
    This is enormously important to the United States of 
America and our foreign policy should be driven by the things 
that are important to the United States of America and I don't 
see that kind of commitment at the foreign policy level, at the 
border patrol level, and I honestly don't see the commitment to 
even law enforcement that used to be the case when I was more 
familiar with it in the 1970's and the 1980's. But I am not as 
familiar with that part of it as I was 8 or 10 years ago.
    Mr. Hutchinson. Thank you, Mayor. Thank you, Mr. Chairman.
    Mr. Burton. Just say Amen to that last one. Mr. 
Blagojevich.
    Mr. Blagojevich. Thank you, Mr. Chairman. Mr. Mayor, you 
mentioned a moment ago street-level prosecutions. Can you talk 
a little bit about the concept of community prosecution? I know 
you have it in Brooklyn--the community prosecution program 
which you have in, as I understand it, in Brooklyn and 
Manhattan. And if I could just tell you that the President's 
21st Century Policing Initiative calls for $200 million of 
Federal funds to be dispersed to the various community 
prosecution programs across the country. I have letters from 
the different district attorneys from across the country, the 
national district attorneys' office, arguing for that money. 
Last year the President asked for $50 million. We were able to 
fund it to the level of $5 million.
    I am interested to hear what your thoughts are on the 
program, how it is working in Brooklyn and Manhattan and the 
level of funding that you received last year, which, in my 
view, is significantly too little, and that is $5 million, as 
well as the President's request for the $200 million.
    Mayor Giuliani. Well, the community--there are two 
different things--I want to make sure that I am responding to 
the right thing--community courts and community policing. You 
are asking about community courts?
    Mr. Blagojevich. I am talking about the community 
prosecution program----
    Mayor Giuliani. Right.
    Mr. Blagojevich [continuing]. The idea that you have 
prosecutors in neighborhoods that work closely with community 
leaders, sort of the extension of the COPS program.
    Mayor Giuliani. We have two programs like that and they 
work very, very well. And they allow us to put focus on a lot 
of the quality-of-life crimes that if you went to a higher 
court, citywide court, it just wouldn't get the same kind of 
attention because in that court they are going to be dealing 
with a person who was arrested for murder, the person who was 
arrested for rape, the person who was arrested for the far more 
serious crimes. It allows communities to have more innovative 
solutions to problems.
    One of the things that we have made a lot of inroads in 
that might not seem like a big thing but it is, I think, in 
many, many ways is reducing graffiti. Graffiti is an act of 
vandalism. A city that has increasing amounts of graffiti is a 
city that has increasing amounts of people who are vandals and 
disrespect the rights of other people. A city that has a 
reduction in graffiti is a city that is moving in the right 
direction.
    One of the things we do in our community program is if we 
catch someone doing graffiti, what we will often do is just 
have the person sentenced to 5 days or 10 days of cleaning up 
graffiti. It has a practical result: it cleans up a lot of the 
graffiti in the neighborhood. But it also has a symbolic and 
maybe even teaches a lesson. It teaches the person how 
important this is. And our community courts and our community 
programs have allowed us to do that.
    I think they are very valuable. I don't know what the right 
level of financing of them would be, but we could certainly 
expand them and they would be valuable in any place in which we 
operated.
    Mr. Blagojevich. And, Mr. Mayor, you have got prosecutors 
in those neighborhoods so that they are just not seeing the 
community leaders when they come to court as complaining 
witnesses, but they are also out there working with the 
community leaders on a daily basis?
    Mayor Giuliani. Yes. It gives them a sense of the 
priorities of the neighborhood. New York City is so large that 
this is probably even more valuable to us than it might be to a 
smaller city or town. In many ways, the local court, which 
would be like say in downtown Brooklyn, can be very, very far 
away from the concerns of the neighborhood that is many, many 
miles away. When the prosecutors are actually in that 
neighborhood, then they know in this neighborhood when somebody 
comes in and is complaining about radios being on late at night 
and making a lot of noise, this is a real problem for them. 
And, therefore, we should be doing something about it. It is a 
program that is very sensitive to the differing concerns that 
occur in different neighborhoods and it is very valuable.
    Mr. Blagojevich. And fair to say that if there was more 
Federal funding for programs like that, you would have places 
to place more of those neighborhood prosecutors, right?
    Mayor Giuliani. Yes.
    Mr. Blagojevich. OK.
    Mayor Giuliani. Yes, sir.
    Mr. Blagojevich. My next question, Mr. Mayor, is 
legislation that isn't going on in New York, but is potentially 
going on in Florida, and that is the possibility that, in fact, 
Florida State House legislation was introduced that would make 
it a felony for a locality to sue a gun manufacturer. Can you 
share your thoughts on that idea with us?
    Mayor Giuliani. I never heard of that. I have never heard 
of that idea. I can only share----
    Mr. Blagojevich. New idea.
    Mayor Giuliani [continuing]. My ideas as a lawyer. I don't 
think you can make access to the courts a felony. It doesn't 
make sense to me.
    Mr. Blagojevich. OK. And, of course, you have no opposition 
to suing gun manufacturers.
    Mayor Giuliani. No, no. Look, I stopped having opposition 
to suing after I became mayor of New York City and there were 
about 90,000 lawsuits against me. The more the merrier. But I 
don't see how you can block access to courts.
    Mr. Blagojevich. OK. Thank you, Mr. Mayor.
    Mr. Burton. Well, we have an official from Florida here who 
might be willing, after the break, to answer those questions 
for you Mr. Blagojevich.
    Mr. Blagojevich. Thank you.
    Mr. Burton. Well, we have gone a little bit beyond our 
time. I understand you have another commitment so the committee 
will stand in recess and hear from the next panel at 1:30.
    Mayor Giuliani. Mr. Chairman, thank you very much.
    Mr. Burton. Thank you, Mr. Mayor. You have done a good job.
    [Whereupon, at 12:03 p.m., the committee recessed, to 
reconvene at 1:47 p.m., the same day.]
    Mr. Burton. The committee will reconvene.
    And I apologize for holding you gentlemen for so long, No. 
1. And, No. 2, I apologize to you for not having all of our 
Members here. Our Members are running all over the place. They 
have different committee hearings and I guess I ought to have 
my hearings on a Monday, Tuesday, or Friday because it seems 
like on Wednesday and Thursdays everybody's holding hearings. 
But I really appreciate your being here and I appreciate the 
records that you fellows have.
    State Attorney Shorstein, why don't we start with you and 
we will have your testimony and then we will ask you questions 
after we hear from both of you.

STATEMENTS OF HARRY L. SHORSTEIN, STATE ATTORNEY, JACKSONVILLE, 
 FL; JOHN F. TIMONEY, POLICE COMMISSIONER, PHILADELPHIA POLICE 
 DEPARTMENT; AND ROBERT CHEETHAM, SENIOR ANALYST, PHILADELPHIA 
             POLICE DEPARTMENT, CRIME MAPPING UNIT

    Mr. Shorstein. Mr. Chairman, distinguished members of the 
Committee on Government Reform, my name is Harry Shorstein and 
I am the State attorney for the fourth judicial circuit of 
Florida. Thank you for the invitation to speak with you today 
about our Nation's criminal justice system.
    The title of your hearings, ``National Problems, Local 
Solutions'' is a perfect description of what I am here to talk 
about today. State and local government are better prepared and 
equipped to deal with problems of public safety than the 
Federal Government. It may be politically popular to tell the 
American people you are tough on crime, but do they know that, 
while passing scores of new death penalty laws, you seldom seek 
it? Congress is considering Federalizing juvenile crime. But if 
you do, I will prosecute in a day more cases than you will 
prosecute in all of the Federal courts, including the Indian 
reservations, in a year.
    The recent dramatic increase in the number and variety of 
crimes prosecuted by the Federal Government significantly 
overlaps and duplicates what has traditionally been within the 
purview of State courts. Between 1982 and 1993, Federal justice 
system expenditures increased at twice the rate of comparable 
State and local expenditures. Though politically popular, 
reduction of crime, particularly violent crime, has been 
adversely affected by federalization. Even with the trend to 
federalization, Federal prosecutions comprise less than 5 
percent of all criminal prosecutions.
    However, there is a legitimate and important role for the 
Federal Government in crime prevention. That role is through 
financial support of State and local law enforcement. That 
should not be curtailed. A perfect example of the appropriate 
and important role that the Federal Government can play is the 
Office of Juvenile Justice and Delinquency Prevention. This 
agency provides critically needed support for creative locally 
developed solutions to the problem of juvenile crime.
    When a local community comes together and makes a 
commitment to implementing a comprehensive approach to deal 
with crime, remarkable things can be accomplished. I would like 
to take just a few minutes of the committee's time to tell you 
about Jacksonville's approach to curbing juvenile crime. Since 
1993, there has been a 44 percent reduction in the arrest of 
juveniles for violent crime in Jacksonville. This includes a 78 
percent reduction in murder; 51 percent reduction in rape and 
other sex offenses; 45 percent reduction in robbery; and a 40 
percent reduction in aggravated assault. In addition to these 
violent crimes, there has been a 67 percent reduction in 
arrests of juveniles for the gateway crime of vehicle theft and 
a 56 percent reduction in weapons crimes.
    The picture in my community was not always so positive. 
When I took office, our city had faced a 27 percent increase in 
the number of juveniles arrested from 1990 to 1991. And during 
the 4 years prior to the implementation of our program, 1989 to 
1993, juvenile violent crime arrests had increased 78 percent.
    Ours is a two-pronged approach to the problem of juvenile 
crime, one that incarcerates repeat and violent juvenile 
offenders and, at the same time, intervenes at an early age 
with children at risk of becoming criminals. In an article 
written for the New York Times, Fox Butterfield called our 
program of sanctions and intervention a preemptive strike 
approach to reducing juvenile crime and, of course, ultimately 
reducing all crime. The term preemptive strike describes 
vividly what we are trying to accomplish by moving decisively 
to head off problems before they occur or worsen.
    Our goal is to incapacitate serious habitual juvenile 
offenders during their most violent and prolific criminal 
period and do everything possible to return them after 
incarceration to an environment different from which they came. 
The combination of early intervention for at-risk youth and 
swift, hard punishment for juvenile criminals when appropriate 
is working in our community. We have shown that if we let 
common sense and not rhetoric guide the system, we can greatly 
reduce juvenile crime.
    Simply warehousing juveniles in jail is not a long-term 
answer. Working with other agencies, we have developed the 
jailed juvenile program. Juveniles in the jail attend school in 
regular classes held in the jail facility. They also receive 
drug counseling and participate in living skills, family 
planning classes, and anger control training. In an effort to 
provide these young offenders with positive role models, they 
are paired with mentors recruited by my office. The mentors 
visit them on a regular basis in the jail and continue to 
provide guidance for the juveniles after they are released from 
jail.
    Many of our prevention-early intervention efforts are 
school-based. A career educator in my office coordinates 
programs with our schools. Truancy and avoiding out of school 
suspension are critical to juvenile crime prevention. When 
appropriate, we aggressively prosecute parents for not sending 
their children to school.
    To address the increasing juvenile drug abuse problem, I 
implemented a juvenile drug court. Juveniles accepted in the 
drug court are immediately enrolled in a multi-phased out-
patient program. Juvenile drug court includes an educational 
component and psychological services for the juvenile and the 
parents.
    In summary the answer is not punishment or prevention. It 
requires both. I incarcerate more juveniles as adults than any 
prosecutor in the country. Equally important, I have more 
prevention-early intervention programs within my office. The 
answer is punishment and prevention-early intervention working 
together. A non-partisan, balanced approach can have an 
unbelievable impact on crime and the welfare of our children.
    I thank the committee for their interest in the issue of 
criminal justice and, more specifically, juvenile crime and the 
children of America. There is no simple solution to this very 
complex and difficult problem. Perhaps today's hearing should 
be entitled, ``National Problem: Localities Seeking 
Solutions.'' Because every day we are trying new ideas and 
approaches. Some work and others fail. Some children turn their 
lives around while others fall into a life of crime.
    The one certainty is that unless the Nation remains 
vigilant and focused on the problem of juvenile crime, the 
gains we have made will fade as we enter the new century. I 
feel confident, however, through aggressive prosecution 
combined with intensive intervention and prevention, the 
progress we have made will continue into the next century and 
beyond. Thank you.
    [The prepared statement of Mr. Shorstein follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.022
    
    [GRAPHIC] [TIFF OMITTED] T6931.023
    
    [GRAPHIC] [TIFF OMITTED] T6931.024
    
    [GRAPHIC] [TIFF OMITTED] T6931.025
    
    [GRAPHIC] [TIFF OMITTED] T6931.026
    
    Mr. Burton. Thank you, Mr. Shorstein. Before we go to your 
video--and I understand you have a video you would like for us 
to see--Mr. Fattah represents, I guess, part of Mr. Timoney's 
area and he wanted to make a remark or two about the new 
commissioner.
    Mr. Fattah. Thank you, Mr. Chairman. I just wanted to 
welcome the commissioner to Washington. And, unfortunately, 
here in the Congress we don't coordinate scheduling so even 
though I am a member of this committee I also have two other 
committees that are meeting at this identical time. But I did 
want to welcome you. And your comments and your testimony today 
here obviously will be helpful as the Congress goes forward.
    And, in addition of which, the effort by the Congress and 
this administration to provide additional police officers, 
which our city has benefited from, has been quite, I think, a 
significant part of both the New York story and the 
Philadelphia story. But nationwide and earlier today, the 
President has offered the notion that he was going to push for 
an additional 50,000 police officers on the street. And I know 
that there is something very bipartisan about this issue of 
fighting crime in which both as Democrats and Republicans, I 
think we have the same desire.
    So I want to welcome you here and, inasmuch as your work in 
Philadelphia has, I think, brought appropriate attention in the 
wisdom of the chairman and his staff to invite you, I wanted to 
stop by and say hello. Thank you.
    Mr. Timoney. Thank you very much, Congressman.
    Mr. Burton. OK. I think we will see the video of Mr. 
Shorstein's right now and then we will proceed with Mr. 
Timoney.
    [Video shown.]
    Mr. Burton. Mr. Shorstein, that is very impressive. I would 
like to have a copy of that tape so I could show that to some 
of the mayors in other parts of the country where I travel. So 
I hope you will give me a copy of that when we are through.
    Mr. Shorstein. You have it.
    [Note.--A copy of the video is held in the committee 
files.]
    Mr. Burton. Mr. Timoney, thank you for being with us as 
well.
    Mr. Timoney. Thank you, sir. Good afternoon, Chairman 
Burton, and other members of the committee. My name is John 
Timoney and I have been the police commissioner of Philadelphia 
for the last year. Prior to that experience, I spent 29 years 
in the New York City Police Department, retiring as the first 
deputy commissioner in 1996, which is the No. 2 person in that 
organization, under Commissioner William Bratton. The 2 
intervening years I spent as a consultant advising governments 
and police departments around the world.
    However, in 1994, as the chief of department under 
Commissioner Bratton, which is the highest ranking uniform 
member, I had the good fortune of being a member of a team that 
changed fundamentally the way in which the New York City police 
department approached its core mission. As part of our new 
approach, we developed an entirely new and much more effective 
set of policies and procedures for tackling urban crime and 
disorder. It is the results of this experience as well as my 
experience as a consultant to police departments around the 
world that I want to share with you today.
    As most of you already know, the heart of the new approach 
to fighting crime, introduced by Commissioner Bratton in New 
York, is a process known as CompStat. Many experts have written 
at length about CompStat: about its origins, its key features, 
and why it has proved so effective in reducing crime in the 
country's most densely populated city. It is not my aim today 
to add to this historical and largely theoretical discussion 
about CompStat or even to defend my decision to introduce it in 
Philadelphia. I prefer to use this opportunity to tell you how 
the Federal Government can make the CompStat process an even 
more powerful tool in fighting crime in our cities.
    In my view, there are three main features of the CompStat 
process. The first is the centralization of the decisionmaking 
to local commanders. It is the local commanders who are the 
closest in touch with crime and quality of life conditions in 
his or her neighborhood. He or she is, therefore, best placed 
to develop and implement the strategies necessary to tackle 
these conditions and it is in his or her responsibility to take 
the lead in doing so.
    This is the approach that we have adopted in Philadelphia. 
The role of top management in headquarters is to support, 
advise, and supply the local commander and to set the policy 
framework within which he or she must work. It is also our role 
to monitor the performance of the local commander and to hold 
him or her accountable for that performance.
    To formalize this monitoring and accountability process, we 
have also introduced the second important feature of CompStat, 
namely the weekly meetings at which local commanders report 
their performance to the department's top management, including 
myself and deputy commissioners and the heads of all the 
special bureaus. At these meetings, local commanders describe 
the conditions in their districts and what they are doing about 
them. Some of these presentations are success stories. At other 
times, however, local commanders find themselves having to 
explain why the strategies they outlined at earlier meetings 
have not been nearly as successful as they had suggested they 
would be.
    The third and most important feature of the CompStat 
process is the use of computerized maps of crime information. 
Rather than talking about what these maps show and why they are 
so valuable, I have brought with me today Mr. Robert Cheetham 
who is a senior policy analyst with the Philadelphia Police 
Department's Crime Mapping Unit who will give you a brief 
demonstration of this exciting and powerful new technology. 
Robert.
    Mr. Cheetham. Thank you, Commissioner. Mr. Chairman, ladies 
and gentlemen, Commissioner Timoney has asked me to show you a 
few examples of what we do in Philadelphia in terms of crime 
mapping. He has just told you a little bit about a process 
known as CompStat. And there are several facets to this, as he 
has explained. But one of the most important is timely and 
accurate data, as well as the maps used to visualize that data.
    The information technology that has brought crime analysis 
and mapping to the mainstream is known as Geographic 
Information Systems. As with all things, in information 
technology, this has an acronym. It is also known as GIS. After 
CompStat, that is the second acronym for the afternoon and I 
promise I won't give you any more.
    In fact, I am not here to tell you about GIS technology. 
Rather, I would like to more concretely show you how it can be 
and is being used in terms of law enforcement efforts. Now, 
unfortunately, I can't show you the live maps we use in the 
weekly CompStat meetings. However, I have prepared a few static 
examples to illustrate some of the concepts Commissioner 
Timoney has just discussed. Slide, please.
    [Slide shown.]
    [Note.--A copy of the slides are appended to Mr. Cheetham's 
testimony.]
    Mr. Cheetham. A brief introduction. The city of 
Philadelphia covers about 144 square miles. The police 
department breaks the city up into a couple of dozen districts 
ranging from about 1 square mile to as much as 16 square miles. 
The weekly CompStat meetings are on a 4-week rotation so that 
over the course of a month, each of these districts is examined 
in detail. Tomorrow, for example, the northwest and northeast 
police divisions will be up.
    Mapping and GIS are used in law enforcement in a variety of 
ways and I will just briefly go through a few of them. 
Visualization is one. Accountability and, for planning 
purposes. Slide, please.
    [Slide shown.]
    Mr. Cheetham. At their most fundamental level, the maps and 
charts that are used for this are very much visualization 
tools. This is not necessarily new. Law enforcement officials 
have been making and using pin maps for over 100 years, long 
before we had computers to assist us. With information 
technology, officers have some significant advantages in terms 
of mapping and analysis of crime. We can construct maps more 
rapidly; we can assign symbols in several different ways; we 
can deal with the enormous data sets. And we can mix data from 
a variety of different sources.
    The map you see in front of you is very typical of what 
officers and command staff will see at tomorrow's CompStat 
meeting. It is symbolized in this case according to 8-hour 
shifts that police officers work and the incident sets are 
drawn from data bases that literally include millions of unique 
events that occur in a given year. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. Several days prior to each weekly CompStat 
meeting, copies of maps and charts, such as the ones you are 
now viewing, are sent out to each of the district commanders 
and then, later, at the actual meeting, these are projected 
live on the wall, much as we are doing now, except the maps can 
be manipulated to follow the conversation. Next, please.
    [Slide shown.]
    Mr. Cheetham. As the dialog between the command staff and 
district officers progresses, the maps are used as a support 
tool to visualize both the geography of the area being covered 
and the most recent events occurring in that area. Next, 
please.
    [Slide shown.]
    Mr. Cheetham. For example, if the conversation turns to a 
few blocks in a particular neighborhood, we can zoom into that 
area, dynamically add or subtract thematic layers of 
information, comparisons can be visually drawn between events 
in the current 4-week cycle and the previous 4-week cycle. If 
we have data that we can use, we can actually overlay other 
kinds of information, such as the locations of schools, ATM 
machines, or vacant lots in juxtaposition to where a particular 
class of events is occurring.
    In this way--next slide, please--we can attempt to ferret 
out patterns, clusters, and relationships between events. Now 
it is important to understand that the computers don't do the 
work for us. Computers are notoriously poor at any kind of 
pattern recognition. But we as human beings are very good at 
this. The computers allow us to rapidly manipulate and 
visualize complex information so that we can take advantage of 
the human being's unique genius for pattern recognition. Next 
slide, please.
    [Slide shown.]
    Mr. Cheetham. The example you see before you is one in 
which we have drawn a simple circle around, at about a 1,000 
foot radius, around public schools. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. The slide that is in front of you now and the 
next couple that I will show are actual examples of what will 
be seen in tomorrow's CompStat meeting. The first one shows 
some burglaries in the northwest section of the city, district 
35. The burglary patterns are often different for commercial 
burglaries as opposed to residential burglaries. Similarly, 
daytime burglary patterns are different from nighttime 
patterns. So we adjust our symbology accordingly. In this 
particular example, the red homes on the map represent 
residential burglaries and the black buildings commercial. Next 
one, please.
    [Slide shown.]
    Mr. Cheetham. The one we are now looking at shows stolen 
vehicles and recovered vehicles. The stolen vehicles are in red 
and the recovered in blue. There are also thefts from vehicles 
overlaid on top of that and those are the light blue dots. The 
other colored regions indicate the location of where school 
grounds are, the yellow areas, and parks. We can also, I think, 
show things like shopping malls and so on. Next, please.
    [Slide shown.]
    Mr. Cheetham. We can also indicate where multiple events 
occur at the same location and where arrests have brought in a 
suspected perpetrator. It is somewhat difficult to see on these 
particular maps, but there are white stars on top of the areas 
in which we have multiple events. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. At a more sophisticated level, we can also 
use this technology for more planning-oriented and tactical 
purposes. Here you can see how concentrations of events change 
in time. The large orange blobs may look like I spilled my 
lunch on the map, but in fact they are quite revealing. What 
you see here are actually concentrations of crimes involving 
firearms in some very troubled neighborhoods in north 
Philadelphia. Over the past 6 months, we have been engaged in a 
large cross-agency, cross-jurisdictional anti-narcotics 
operation called Operation Sunrise.
    On the righthand side of each of these maps, there is a 
phase I and a phase II in roman numerals. And these are the 
areas that Operation Sunrise has already had some impact in the 
first 6 months. In the top map, you can see July to December 
1997, gun crimes in that area. And in the bottom map, July to 
December 1998. The darkest orange area show where the 
concentrations of violent gun-related crimes are occurring. 
From this display, we can see, upon examination, that Operation 
Sunrise is clearly having an impact. The darker orange areas 
are decreasing in size and intensity. This is important for the 
people involved in Operation Sunrise to see.
    One of the rules in this operation is that we don't move to 
the next phase until we can clearly show that the current area 
has been stabilized. Based in part on these maps, Operation 
Sunrise will begin phase III this week. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. Taking these maps of change to the next 
level--if you could click on that map, please--taking these 
slides of change to the next level, we can actually take the 
same sorts of information over, let us say, a 6-month period, 
and slice that up into much smaller periods. If you would press 
play, please. And string these along into a sort of filmstrip 
in which we can show how the concentrations move across the 
urban fabric through the course of time. Thank you. Next slide, 
please.
    [Slide shown.]
    Mr. Cheetham. In addition to these displays of change over 
time, we can look at real estate information, aerial 
photography, socioeconomic data, public health information, 
several kinds. All of these information sources help us to plan 
these operations to be a more effective use of public funds and 
to minimize the risks to police officers and other public 
officials involved.
    Now, before handing this back to Commissioner Timoney, I 
would like to return to a couple of the maps I showed you 
before.
    [Slide shown.]
    Mr. Cheetham. This is an earlier one in which there are 
concentrations of thefts from vehicle and then there are--
previous slide please----
    [Slide shown.]
    Mr. Cheetham [continuing]. Concentrations of thefts from 
vehicles with the outlines of the police districts drawn on top 
of it. Those are the black lines on the map.
    I would like to point out something very important here. 
That is even at statis--and crime patterns are rarely in a 
state of statis--these concentrations span boundaries. In other 
words, the criminals have no respect whatsoever for the 
political boundaries drawn by governments. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. Returning to the maps that we will use in 
CompStat tomorrow, we can see something else. I would like to 
draw your attention to this upper northeast corner of 
Philadelphia, the seventh and eighth districts. You will notice 
several clusters of automobile-related crimes along the edges. 
One of these is a mall, the other is a housing development and 
transportation artery through the region. What you will also 
notice is that the dots, representing incidents of crime, stop 
at the edge of the city. The same is true on the next slide, 
please.
    [Slide shown.]
    Mr. Cheetham. But, in fact, we all know that those dots 
don't stop and that crimes are occurring just across the 
boundary, we just can't see them. Next slide, please.
    [Slide shown.]
    Mr. Cheetham. In this final slide, we are looking at stolen 
vehicles again. This time the stolen vehicles are in the city 
and they are represented by red stars and the vehicles outside 
the city are the blue cars. In addition, we have drawn a red 
line between the two events. In other words, when we can link 
where a car was stolen and the place from which it was 
recovered, we have made that link explicit.
    We often use maps such as this to locate so-called chop 
shops where stolen vehicles are chopped up into parts for 
resale. In this particular case, these vehicles are recovered 
outside the city. Or, in many cases, such as Camden, the city 
of Camden in the lower right, outside the State. But what you 
see is only half the story. We cannot see where the cars are 
either stolen outside the city or recovered inside. We lack the 
data and, more importantly, we lack the standards to exchange 
information with other law enforcement agencies that surround 
the city.
    That ends my presentation. I will turn things back to 
Commissioner Timoney and he will discuss some of the ways in 
which this might be cured.
    [The prepared statement of Mr. Cheetham follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.027
    
    [GRAPHIC] [TIFF OMITTED] T6931.028
    
    [GRAPHIC] [TIFF OMITTED] T6931.029
    
    [GRAPHIC] [TIFF OMITTED] T6931.030
    
    [GRAPHIC] [TIFF OMITTED] T6931.031
    
    [GRAPHIC] [TIFF OMITTED] T6931.032
    
    [GRAPHIC] [TIFF OMITTED] T6931.033
    
    [GRAPHIC] [TIFF OMITTED] T6931.034
    
    [GRAPHIC] [TIFF OMITTED] T6931.035
    
    [GRAPHIC] [TIFF OMITTED] T6931.036
    
    [GRAPHIC] [TIFF OMITTED] T6931.037
    
    [GRAPHIC] [TIFF OMITTED] T6931.038
    
    [GRAPHIC] [TIFF OMITTED] T6931.039
    
    [GRAPHIC] [TIFF OMITTED] T6931.040
    
    [GRAPHIC] [TIFF OMITTED] T6931.041
    
    [GRAPHIC] [TIFF OMITTED] T6931.042
    
    [GRAPHIC] [TIFF OMITTED] T6931.043
    
    [GRAPHIC] [TIFF OMITTED] T6931.044
    
    [GRAPHIC] [TIFF OMITTED] T6931.045
    
    [GRAPHIC] [TIFF OMITTED] T6931.046
    
    [GRAPHIC] [TIFF OMITTED] T6931.047
    
    [GRAPHIC] [TIFF OMITTED] T6931.048
    
    Mr. Timoney. Thank you, Robert. As we said prior, we use 
the CompStat process to set strategic and target goals. 
Probably the most fundamental, important step is timely and 
accurate information. To guarantee that we have timely and 
accurate information, I have established a quality assurance 
bureau, which reports directly to me, which makes sure that our 
information is both timely and accurate. Additionally, I have 
appointed an independent expert, Professor Larry Sherman of the 
University of Maryland, to advise me on the matters of crime 
reporting and the correlation of crime.
    But accuracy and timeliness, although necessary, on a 
necessary basis on which to plan a crime-fighting strategy, is 
not sufficient alone. In order to fight crime effectively, 
police commanders have to identify crime patterns that Robert 
mentioned earlier. Unfortunately, as you saw from the maps, 
these patterns often cross boundaries because criminals 
recognize no artificial political boundaries.
    As a result of our meetings in CompStat, I decided, along 
with the concurrence of Mayor Rendell, to host a meeting of the 
four major counties surrounding Philadelphia, along with about 
100 different police jurisdictions, to share the information 
and give them a demonstration on the mapping capabilities of 
Philadelphia and also to promise them we would assist them in 
setting up, if they so desired, mapping for their individual 
areas. And the response on the part of the chiefs in the 
surrounding areas was nothing short of spectacular.
    I am delighted to report that they welcomed these 
suggestions enthusiastically and we have begun working out a 
formula to make sure that this happens over the near future. 
But my suggestion might have not been so enthusiastically 
endorsed. My colleagues may have preferred to continue doing 
things on their own. All of us would have suffered and none of 
us would have been able to tackle the problems on our own. That 
is why I believe the Federal Government has an important role 
to play here. Enabling police departments across the country to 
exchange crime information electronically is too important a 
goal to be left to the voluntary actions at the local level.
    I know that the Department of Justice is now thinking about 
how best to approach this subject, but I believe that the time 
for thinking is past. It is now time for action. If the Federal 
Government is serious about helping local communities to fight 
crime more effectively, it is this area in which it can and 
should take a strong lead. It should set up a commission to 
develop common data and technical standards for the criminal 
justice system and to take positive steps to encourage local 
agencies to endorse and adopt them.
    Computer mapping of the kind you have just seen is only one 
example of how science and technology can significantly 
strengthen the crime-fighting capabilities of local police 
departments. DNA, automatic fingerprint identification systems, 
ballistic identification systems are other areas with which 
members of the committee may be familiar. The point I want to 
make is that, as we approach the new millennium, effective 
policing requires more than uniformed police officers on the 
street. Police departments also need sophisticated scientific 
and technological support. This means specialist equipment, 
systems, and professionals to operate them. For example, 
forensic scientists, information technologists, and 
communications engineers.
    Here again, I believe the Federal Government can play a 
vital role. For too long, the law enforcement community in this 
country has relied on others, mainly in the Defense industry, 
to develop the science and technology that it needs to do its 
job. But policing local communities is very different from 
fighting foreign enemies. The police have special needs that 
are unlikely to be understood or met by military suppliers. I 
therefore believe that the time has come to establish a 
national laboratory of criminal justice and of law enforcement 
science and technology, similar, but independent of the well-
known laboratories that support the Department of Defense.
    It should be staffed by the finest professional scientists 
and technologists, working alongside the best criminal justice 
professionals. Its mission should be to become the center of 
excellence in the application of science and technology to the 
problems of the criminal justice system. As well as carrying 
out a program of applied research and development, it should be 
available to assist individual departments with difficult 
operating requirements, expensive specialist equipment, or 
other expertise.
    A model for such a laboratory already exists in the United 
Kingdom. It is funded and managed by the national government 
and it is an important part of the UK policing scheme, both 
because of its research findings and its technical support 
activities. It was that laboratory which was responsible for 
first applying DNA technology to the world of criminal justice.
    The establishment and maintenance of such a facility is not 
the project which one can expect an individual community to 
take on, no matter how large or how rich this community is. 
Some might argue, however, that this is something in which the 
FBI or some other Federal law enforcement agency should take 
the lead. But this would give the institution a much narrower 
focus than I believe it should have. I would like to see it 
serve the whole criminal justice community, not just the law 
enforcement sector. And its principal focus should be on local 
concerns, rather than national ones.
    Crime is primarily a responsibility of local communities 
and the experience in New York and elsewhere has proven that it 
is most effectively tackled at the local level. But I believe 
that the Federal Government can play an important role in 
helping local communities carry out their responsibilities even 
more effectively. It can do this by providing those things, 
like the development of national standards and the support of 
major research and development programs, that can only be 
delivered nationally. In this way, the Federal Government can 
legitimately help local communities to help themselves. I thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Timoney follows:]

    [GRAPHIC] [TIFF OMITTED] T6931.049
    
    [GRAPHIC] [TIFF OMITTED] T6931.050
    
    [GRAPHIC] [TIFF OMITTED] T6931.051
    
    [GRAPHIC] [TIFF OMITTED] T6931.052
    
    [GRAPHIC] [TIFF OMITTED] T6931.053
    
    [GRAPHIC] [TIFF OMITTED] T6931.054
    
    [GRAPHIC] [TIFF OMITTED] T6931.055
    
    [GRAPHIC] [TIFF OMITTED] T6931.056
    
    Mr. Burton. Thank you, Mr. Timoney. Has anybody ever told 
you you resemble Richard Harris, the movie star?
    Mr. Timoney. Only about 1.5 million times. [Laughter.]
    We are from the same country, maybe that is what it is.
    Mr. Burton. I just was waiting for you to start singing 
McArthur Park.
    Well, first of all I want to thank you both very, very much 
for being here. You know, in the press I think you have been 
described as a cop's cop and, toward that end, what makes you, 
a cop's cop, more capable of making decisions than somebody who 
has just graduated from some crime school?
    Mr. Timoney. Oh, I think, while I am all for education--I 
have a lot of education--there is nothing to beat experience on 
the street, dealing with especially in large urban areas, 
dealing with diverse communities. And, you know, having worked 
in some of the tougher parts of New York in a variety of 
assignments from patrol, plainclothes, to narcotics, combined 
with a formal education, I think I bring a unique experience 
and resume, if you will, into fighting crime.
    And I think, with good leadership, good systems, police 
departments can be much more effective at the local level in 
fighting crime, I think, then they ever have in the past.
    Mr. Burton. You are adopting, I presume, a great many of 
the programs and systems that Mayor Giuliani talked about 
earlier today.
    Mr. Timoney. Right.
    Mr. Burton. You were the chief deputy commissioner in New 
York.
    Mr. Timoney. That is correct.
    Mr. Burton. And so I presume that what you are doing is 
taking a lot of those same ideas, augmented by new ideas you 
are coming up with, to Philadelphia.
    Mr. Timoney. Correct. And the one addition--I mean, there 
are a lot of additions--but the one this young man sitting next 
to me, he and two of his colleagues are graduates of the 
University of Pennsylvania that have degrees, sophisticated 
degrees, in computer science. And that is a new appreciation 
that I have for the civilian end of the policing world that 
even us tough, hardened veterans can learn from young civilians 
that are specifically trained in this high-tech area.
    Mr. Burton. Very good. This CompStat program that you are 
talking about, do you know how many American cities are 
adopting that, besides Philadelphia and New York?
    Mr. Timoney. I don't know the exact number, but I think 
most of them have taken on some form of the CompStat process. 
Although I think a lot of them don't do it quite correctly. The 
one thing that is misunderstood, I think, about CompStat, the 
one important feature for me, is the CompStat process, those 
weekly meetings that are chaired by myself and the executive 
staff, for the first time ever in American policing, it has got 
top management involved in day-to-day crime-fighting. Before, 
trust me, in the old organization, the big chiefs never got 
involved in fighting crime on a day-to-day basis.
    In the CompStat process, the crime is laid out on maps. It 
forces you to deal with it. It forces you to get actively 
involved. It forces you to help the local commanders come up 
with the decisions regarding strategies and how to deal with 
that stuff effectively. That, I think, is the unappreciated 
side benefit of the CompStat process.
    Mr. Burton. Do you think a great many more policemen being 
funded at the Federal level and sent to the local communities 
would be helpful? Or do you think the money would be better 
spent giving it to the city police chiefs in the form of a 
block grant and let them come up with the innovative ideas on 
how to stop crime? I mean, you know, we have a limited number 
of Federal dollars that we are going to spend.
    Mr. Timoney. Right.
    Mr. Burton. And I am not going to get partisan in any way.
    Mr. Timoney. Yes.
    Mr. Burton. But the administration has one view and that is 
to put more policemen on the streets, with which I share a 
great deal of support. But then there is another attitude which 
has been expressed I think by Mayor Giuliani and I think you 
guys, to a degree, and that is that it would be better to block 
grant the money back because cities have individual problems 
and needs and it would be better to let them come up with 
innovative ways to spend that money.
    Mr. Timoney. Yes. I mean, it is always nice, as you said, 
to have more police officers, but the idea of having a lot more 
discretion sometimes to choose between a single police officer, 
for example, at $40,000 per year and a piece of technology that 
may benefit 100 police officers and leaving it up to the local 
chief to make that decision I think is always a wise decision.
    Mr. Burton. So you think that would be a better approach 
because you understand the problems better at the local level 
than the Federal level.
    Mr. Timoney. That is correct. Yes, without a doubt, I think 
the more discretion that the local commanders are allowed to 
have regarding spending money is always desirable.
    Mr. Burton. Do you agree with that?
    Mr. Shorstein. Yes, I do.
    Mr. Burton. That was a quick answer.
    Mr. Shorstein. No, I think there is a lot of analogy that 
can be drawn between CompStat and our juvenile justice program. 
And we hate to use the war analogy, but, essentially what 
mapping does is recognizes where the problems are and you 
direct your efforts and your resources or your troops, if you 
will, to the most important fronts.
    I think the same analogy can be drawn to focusing on 
juvenile crime. That historically the Federal and State and 
local governments have ignored juvenile crime and waited and 
addressed crime by programs such as three strikes you are out, 
which are programs we often support because the punishments are 
warranted. If the war is raging on the 11 to 18 year old and, 
as Mr. Horn pointed out earlier, starting with fighting crime 
at 0 to 3, stopping teenage pregnancy, dealing with welfare 
reform so that you are not making decisions here in Congress 
that essentially contribute to future criminal problems.
    So I do agree--it is quite a long answer to your question--
that we not only are better able to understand what I refer to 
as traditional crime, the rape, robbery, and murder type crime, 
than you are, because we deal with it more comprehensively, but 
when we develop programs, hopefully with your support, if they 
are effective, then we are better able, even politically, to 
enhance our own efforts. As you have seen, I think, in our 
video, the support is very, very broad within my jurisdiction.
    Mr. Burton. OK. I have some more questions, but I will now 
yield to Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman and I 
appreciate the testimony that you gentleman have provided. It 
is really excellent what you are doing and it deserves to be a 
national model and I guess you probably have a lot of 
inquiries, both of you, every day. And Mr. Giuliani, Mayor 
Giuliani, this morning, certainly had a turnaround. And I know 
it can be done.
    I was in Philadelphia when I was vice chairman of the U.S. 
Commission on Civil Rights and we examined the police 
department and I am delighted to see you, Commissioner. Because 
it was absolute chaos in that department 20 years ago where 
they had no deadly force policy, for example. You just shot at 
somebody. There was no policy. And we had the good mayor at 
that time, ex-police commissioner, who had left a lot of 
problems there. And I tried out a deadly force situation on him 
and I said, you have got 10 seconds to make up your mind, not 
just 3. And where is the policy? And we found two young 
children had been killed by the police, both 16, one white, one 
black. And it was just a mess. So I am sure you are 
straightening that one out.
    But what interests me here is what you are doing is right 
at the core of it and that is to get them early out of the 
cycle. And you are right about the truancy. And you are right 
about keeping them busy and all the rest. And I guess I would 
like to know, under either the laws you have to operate or the 
grants you have to operate--I hear you want them discretionary 
and I certainly agree with that--but how much flexibility do 
you have in both cities to do what you think needs to be done, 
based on your practical experience? Are the laws and ordinances 
and grants, Federal, State, do they limit you in some ways that 
you would like not to be limited if you are going to be even 
more successful?
    Mr. Shorstein. More, to answer to would we like more 
flexibility. Yes, I can give you some examples. Another area 
where the Federal Government has been helpful to us has been in 
establishing a drug court program office where we have received 
Federal funding for drug courts, which I believe are very 
effective. I have an adult and a juvenile drug court in 
Jacksonville. But, again, there are some very, very strict 
limitations that are not always practical. It seems as if well-
intentioned grant policies get bogged down, understandably in 
some cases, with restrictions that are not practical.
    Now, conversely, or as lawyers always say, on the other 
hand, I respect your very, very difficult decision in trying to 
understand where the money should go. I jokingly addressed the 
other body last year and I told the Senator we don't want your 
advice, we just want your money. Which is sort of truthful, but 
it was a joke.
    I am always asked how do we tell Congress to draw the 
legislation so as to see that the money gets to the place it is 
intended. It is a very, very difficult problem, Congressman, 
and, again, sarcastically, I could say, I am just a prosecutor, 
that is really your problem.
    Mr. Horn. What we are doing to education in this Congress 
is to make sure that 95 percent of every grant in education 
gets into the classroom, not skimmed off by the Federal 
Department of Education, not skimmed off by the State 
department of education, not skimmed off by the county 
department of education or the local unified school district. 
And I think that will help get the money where the people that 
are on the firing line do the good things and make the 
difference. And that is exactly what you are asking for and we 
ought to do it.
    I think the best thing Congress ever did in this area was 
the Revenue Sharing Act that lasted from Nixon to Reagan. 
Unfortunately, Reagan gave into the lobbying forces here and 
the Democrats and they destroyed the program. And yet it gave 
local council members who know their city a lot better than any 
of us do sitting here and gave them the authority to get the 
job done, be it parks or police or whatever was the need of 
that city. I hope one of these days when we retire the national 
debt a few trillion dollars that we can get back to that.
    But let me ask you in a couple of other areas. You 
mentioned DNA and I am curious, Commissioner, what is your 
thinking along that line? Is that that we keep juvenile files 
on DNA in case crimes develop and you can check the DNA against 
the file? Or what is your thinking on that? It is a great----
    Mr. Timoney. Yes, but I am hesitant against central data 
banks unless somebody has been arrested and convicted of a 
crime. I think you have to be real, real careful. Any time you 
put any kind of central files, you just have to be extremely 
careful. The thing I am arguing for as far as DNA, though, is 
that where the Federal Government has the role, whether it is 
in DNA or other technologies or standards, is coming up with 
clear Federal standards and guidelines. Even for DNA it is not 
compatible, for example, between Philadelphia and Pennsylvania 
State police and Philadelphia and the FBI. They need certain 
standards that go across the country. The same thing for crime 
reporting.
    What we are trying to do in Philadelphia is recognize the 
artificial political boundaries that surround Philadelphia and 
encourage our chiefs of police in the surrounding areas to 
become a partner with us, using this mapping. And we are taking 
now CompStat to the next level, a regional-type CompStat where 
we do not recognize for planning purposes, strategic planning 
purposes, artificial boundaries. That what we are all about 
and, you know, we are receiving great enthusiastic response 
from the local communities surrounding Philadelphia.
    But the importance of DNA or anything else is setting up 
standards, national standards, that all police departments can 
abide by.
    Mr. Horn. Now, to what degree do we have any sort of a 
national standard now? Has the FBI ever generated some thinking 
in this area? What is happening?
    Mr. Timoney. Gordon Wasserman who is my chief of staff and 
adviser also on technology sits on some of these committees.
    Mr. Wasserman. This is a very technical and the edges are 
not straight. There are, at the moment, several ways of doing 
DNA profiles and that is why the Commissioner is right saying 
some profiles don't compare with others. The Federal Government 
is working on standardizing this, simplifying the way DNA is 
taken and standardizing on a particular method for taking DNA 
profiles.
    After all, DNA developed from medical technology is now 
being applied to the criminal justice system. But it is very 
much something which has come from another sector and there is 
no, yet, agreed--that is nationally agreed--way of taking a 
profile. But it is the standards the Commissioner has been 
talking about, not only of DNA, but even fingerprint systems, 
as you probably know, don't talk to each other. There are 
proprietary standards of fingerprint systems or ballistic 
identification systems so that we in Philadelphia have one 
method of identifying ballistics of shell casings, but we can't 
compare ours electronically with those shell casings analyzed 
across the river in Camden, NJ.
    So there are many examples of how proprietary standards, 
which suppliers develop in order to sell their products, 
whether it be a ballistic identification system or an automatic 
fingerprint system or some other systems, develop their own 
proprietary systems which prevent local agencies from 
exchanging this information electronically. And we all know 
this from our own computer systems that computer systems can't 
be linked together unless common standards have been developed.
    So with this very specialized technology used for criminal 
justice, we need to have agreed standards. We couldn't have 
telephone systems which spoke to each other, I mean, you 
couldn't speak to someone living in China unless the Chinese 
telephone authorities and the American telephone authorities 
had agreed on a common standard. And so that is the problem we 
have of comparing fingerprints or ballistics or anything else. 
And that is why we want to----
    Mr. Horn. Well I am glad I asked that question, because you 
have educated me on this. And, Mr. Chairman, either at the full 
committee level or at my Subcommittee on Government Management, 
Information, and Technology level where we have jurisdiction 
over the information laws of the Federal Government and 
electronic transmittal of data over that. You raise a very 
interesting question. It isn't that something is wrong with the 
DNA test and its value, if you can analyze it correctly. But 
what is not agreed upon is right now will any of these 
different samplings around the country fit in where you can 
have reliance on what the data are telling you. So we will take 
a look at it and you two look like good witnesses in this area, 
down the line.
    Let me ask about arms that----
    Mr. Burton. Stephen, would you yield on that real quick.
    Mr. Horn. Yes.
    Mr. Burton. I want to make sure I understand what you just 
said. There is an inconsistency in the systems that are used by 
different locales in keeping these records. And, therefore, it 
makes it difficult to compare them across State or county 
lines, for that matter. Would you advocate that there be some 
kind of a national norm set up, maybe by Congress, not to 
interfere with the collection of this data, but to make sure 
there is consistency in the way they keep these records so that 
they could be compared?
    For instance, fingerprints from L.A. to New York, DNA 
samples from L.A. to New York, so that in a moment's notice 
they could be compared for law enforcement purposes and you 
wouldn't run into this problem with different systems?
    Mr. Timoney. That is clearly it. But even now, for example, 
in the ballistics area, where the FBI and the ATF has two 
separate systems, one has Drug Fire, the other has Brass 
Catcher. They are two completely different systems.
    Mr. Burton. What I am saying is should we move toward 
uniformity?
    Mr. Timoney. Oh, absolutely. Clearly, yes.
    Mr. Burton. Well, then that is something that we probably 
ought to look at. That might even be much more cost-effective 
in the long run if you had that kind of uniform requirement.
    Mr. Wasserman. Chairman, can I just say--I mean, what makes 
the Internet work so well is there are standards that have been 
developed so that we can now look up, at a press of a button, 
we can read the newspaper from Paris and London and that is 
because certain standards have been agreed. What we would like 
to see in the criminal justice field and not so much in the 
DNA, that is a very specialist field and people are working 
toward a common way of analyzing DNA, but the information which 
is so much more important and the preparation of the criminal 
information and the collection of the information.
    Every single police department collects the same 
information. It is there in their computer systems, but it is 
there in a different way. And there are two ways: the data is 
different. They collect in a slightly different way. And the 
computer system is different. If we could agree on that and we 
could produce these same maps for the whole of the Philadelphia 
region through electronic interchange. And the Department of 
Justice is thinking about it but----
    Mr. Burton. Which would help the whole justice system.
    Mr. Wasserman. Absolutely.
    Mr. Burton. Go ahead, Mr. Horn.
    Mr. Horn. If you will indulge me on two more questions.
    Mr. Burton. Well, I will be glad to indulge you.
    Mr. Horn. Mr. Chairman, I realize there is a real back up 
here. [Laughter.]
    But the arms in an urban area, what is your policy and 
feelings that ought to be done in that area? The degree to 
which arms, be they Saturday night specials, be they handguns 
of one sort or the other, what would you, as commissioner of 
police in Philadelphia, recommend in that area and what would 
you as State attorney in Jacksonville recommend? I am 
interested in your views on that.
    Mr. Timoney. Well, there is a particular problem with 
Pennsylvania now. As a result of certain States, notably 
Maryland and Virginia, passing one-gun-a-month legislation, 
Philadelphia now, all of a sudden, when you are looking at 
illegal guns that are confiscated in New York, Philadelphia all 
of a sudden, in the last 2 or 3 years, has become a source 
State, largely as a result of the ability for strawman 
purchases where a legitimate citizen can go in and purchase 30, 
90, 100 weapons and then go file down the numbers and go sell 
these guns out on the street in west Philly or up in New York 
City.
    I testified in Harrisburg on Monday to try and get a 
reasonable piece of legislation that doesn't infringe upon the 
rights to bear arms. There's nobody attacking the Constitution 
that way. But to try to remove the profit from illegal sales of 
handguns through strawman purchases. And that is what we are 
looking at. Right now that is a front-burner issue for myself 
and Mayor Rendell in Philadelphia. Other States have gone that 
way, but Pennsylvania has not.
    Mr. Horn. Mr. Shorstein.
    Mr. Shorstein. You are addressing an unbelievably difficult 
problem. I firmly believe that there are too many guns out 
there and I believe that there is no justification for not 
doing everything in the world to separate juveniles from 
firearms. The types of crimes we see today are so different 
than the crimes I prosecuted in the 1960's and the 1970's. They 
mirror the sensationalism of the violent television shows. You 
seldom ever find a revolver used in a--of course, that is an 
exaggeration. But everything now is a semi-automatic weapon or 
a firearm.
    But, politically, it seems as if Washington and I know my 
State bogs down on the issue of firearms. So I guess we can't 
let it destroy good legislation and I am afraid it may have 
last year with the Federal legislation on juvenile crime, both 
in the House and in the Senate. The word we got, those of us 
who were fighting for the Federal legislation, is it is going 
to die on the issue of firearms and gun locks because the NRA 
cannot live with gun locks.
    My response to you would be----
    Mr. Horn. Which is outrageous, I think.
    Mr. Shorstein. Let us address it some other day and get on 
with the--and let me give you one last example that I am very 
proud of because I do believe there are too many guns. In my 
jurisdiction, I got with Marion Hammer who at the time was the 
Florida director of the NRA and I think, ultimately, the 
national president. And I said we disagree somewhat on gun 
control, but let us get together and implement the Ed the Eagle 
gun safety law program which is an NRA program that teaches 
children to get away from firearms. And it was a great joining 
of hands between two people who had different views on firearms 
generally, but who agree on the issue of juvenile crime and 
violent juvenile crime.
    So all I can tell you is firearms in the inner-city, to my 
knowledge, an unbelievable problem.
    Mr. Horn. On the inner-city and the gangs in the inner-
city, some cities have tried to bring a class action against 
the gang as a whole to accept responsibility when one of those 
gang members is killing some poor 4-year-old who just 
accidentally happened to be out at 8 p.m., and they are going 
to fire bullets into the house because that is where another 
gang member or brother, perhaps, lives. Have you thought of or 
pursued that line in any way, either in Philadelphia or 
Jacksonville, where you just nail them and they have to start 
paying the bills for the people there one of their members is 
killing?
    Mr. Shorstein. Well, you address a very interesting point, 
which I understand was done in New York. I was on a national 
panel----
    Mr. Horn. In California there was some lawsuit.
    Mr. Shorstein. And in California. It was a good, a rare 
good, marriage between local and Federal law enforcement 
because generally I believe you should leave the violent crime 
war to those of us on the local level. But they did use the 
Federal RICO statutes, I understand, in New York to target 
gangs and prosecute the gang itself as a racketeer enterprise, 
leaving the individual substantive prosecutions to the State 
level. That was one of the rare presentations I have heard 
where the Federal Government did help us, effectively, in 
addressing violent and serious crime.
    Mr. Horn. What else do you think you need to do along the 
line that you are already doing it and haven't done, for one 
reason or the other? Is there another stage here that both of 
you feel we ought to be doing nationwide?
    Mr. Shorstein. Well, I agree with what the Commissioner 
said as far as standardization, not just in the area of DNA 
because that addresses a lot of legal problems. Various States 
have different legal bases for the admission of DNA or for any 
scientific evidence, throughout the United States.
    I guess you could tell by my original presentation I am 
just fanatically sure that addressing crime at 0 to 18 is the 
answer to overall crime reduction. And I can tell you, 
Congressman, when I started this in 1991 or 1992, no one 
listened to us. But now you are. And I think we are about to 
turn the corner on what I think is the most overlooked 
addressing of critical crime prevention in the United States.
    If you just picture a chart that I use that shows crimes 
committed by all criminals, 8-0 to death--it is really 11 
through 40--from 11 to 18, the line goes straight up in the 
degree of violence and the degree of activity of a criminal. 
From 18 to death, it goes straight down and goes down 
drastically to age 25, essentially separating the juvenile from 
the adult criminal justice system. And regardless of everyone's 
understanding and acknowledgement of that, you and we continue 
to devote all of our resources--almost all of our resources--to 
the adult system, ignoring the juvenile system. And I think 
that's unforgivable.
    Mr. Horn. Thank you very much. It is impressive what both 
of you have done.
    Mr. Burton. Thank you, Mr. Horn. Let me ask a couple. 
During your conversations, you in particular talking about the 
young people, you kept talking about how violent it is between, 
as far as crime is concerned, with children under 18. And do 
you have any statistical data or do you have any feelings about 
how television relates to that and movies relate to the 
explosion of violence among young people?
    Mr. Shorstein. No, Mr. Chairman. I don't have statistical 
data and I hate to use anecdotal examples, but I have never 
heard an intelligent presentation that didn't acknowledge the 
correlation between the violence on television, in the movies, 
in the music, and crime. I just can't envision someone saying 
that that is not impacting particularly on violent juvenile 
crime.
    Mr. Burton. Well, I just wish somebody would think up a way 
that would not violate the first amendment so that we could 
encourage, cajole, browbeat, whatever you wanted to call it, 
the entertainment industry into being a little bit more 
responsible. You know, I am not for censorship, but it just 
seems like to me there has got to be some way. I remember in 
New York City, they had this movie about a boy that came in and 
wanted the money from a teller at a toll gate at a subway and 
they sprayed a flammable liquid in and set him on fire.
    Mr. Shorstein. Yes.
    Mr. Burton. And I think within a week they actually did 
that.
    Mr. Shorstein. Yes.
    Mr. Burton. And so there are examples of where they really 
do emulate the violence they see on TV. So if you, as law 
enforcement experts, come up with any ideas that you think 
might stimulate the entertainment industry to head in a little 
different direction, please let me know because I would like to 
work with you on that.
    You indicated--what is wrong? You indicated that you 
compromised with the NRA down in your area on the----
    Mr. Shorstein. Ed the Eagle gun safety program.
    Mr. Burton. Yes. Do you think there are other areas where 
there could be some agreement reached between you and the 
people who believe very strongly in the right to own and bear 
arms, so that we could protect young people, keep guns as much 
as possible out of the hands of young people, while, at the 
same time, protecting the second amendment rights of people?
    Mr. Shorstein. I think we are doing it now, Congressman. It 
has to be done because when I sit in my office and hear that 
the juvenile justice legislation pending before Congress may 
die on the NRA's opposition, that is just unacceptable. I 
understand everyone's right to bear arms. I am not so sure that 
I agree with the number of arms they are bearing. I guess if I 
had my choice, I would tell you only those of us in law 
enforcement should have guns and none of the rest of you 
should. But I do understand that constitutionally that is not 
the principle.
    And I think we have to do what I did. It was somewhat 
symbolic, but we could get together and agree on legislation 
and efforts to take guns away from children. And I don't think 
the NRA disagrees with that.
    Mr. Burton. Well, I wish that maybe you and some others 
like you who are working very hard in the youth area would talk 
to--I know a lot of the people at the NRA. I would be very 
happy to facilitate meetings with you and Wayne LaPierre, 
Charlton Heston, or whoever it might be over there to try to 
come up with some compromises that would satisfy both, or as 
close as possible, both. So that we could solve some of your 
problems while, at the same time, protect those rights.
    I want to ask you a couple more questions, Mr. Timoney. 
What kind of support has the Justice Department given to you 
and other law enforcement officials like you around the 
country? Are you getting much support out of the U.S. Justice 
Department? Or do you kind of just do these things on your own?
    Mr. Timoney. No, that wouldn't be fair. We would like to 
get a lot more support as far as in the area of research and 
development. Most police departments, even a rich police 
department like the New York City police department, does not 
have the money to engage in any kind of real research and 
development to do pilot programs. And I think that is an 
appropriate area for the Justice Department to get into.
    And they did. They get into it a lot more, I would say, in 
the academic area, but I think that more could be done in the 
area with the practitioners on the ground. That is clearly one 
area, but overall they have been very supportive of us.
    Mr. Burton. Have they helped you at all with the CompStat 
program?
    Mr. Timoney. No, the CompStat program, believe it or not, 
most people don't know how the CompStat program started. I do 
since I was one along with Commissioner Bratton and Jack Maple. 
The CompStat program started as pin maps and when we brought in 
about 50 corporate citizens into police headquarters back in 
1994, explained to them what we were trying to do, it was the 
business community that went out and bought the--actually 
adopted a district; 76 stand-alone PCs with printers with map 
info for about $8,500, $9,000.
    It was the business community that actually purchased the 
original machinery, the individual PCs, that started the 
original CompStat process.
    Mr. Burton. Do you know how many cities across the country 
have adopted that?
    Mr. Timoney. I know hundreds of them have gone to New York 
and have seen it, but I don't know how many are practicing it. 
My sense is most of them. I was at the major city chief's 
conference in Los Angeles 2 weeks ago and the sense was at 
least, certainly in the 50 major cities, the vast majority of 
them are doing some form of CompStat.
    Mr. Burton. Well, I think I have exhausted the questions I 
wanted to ask you. What I would like to end up by saying is if 
you have some data that you could give to me on like the tape 
that you had, Mr. Shorstein, which we could show to mayors in 
other cities that may not be conversant with, you know, what is 
happening in your area. And if you could give us the CompStat 
program or information on that that we could give to mayors 
that are not yet using it, maybe we could stimulate some 
interest that might help other cities that have high crime 
problems.
    Mr. Timoney. Yes.
    Mr. Burton. I know a lot of them are probably doing this on 
their own, but I would like to be able to make copies of your 
tapes and make copies of your charts and everything and your 
statistical data and send it out to them so we can maybe 
stimulate them getting started.
    Let me end up by saying I really, really appreciate your 
being here. It has been a long day. I know you waited a long 
time to testify, but you guys have done a great service for 
your communities and for the country and I think the 
information you have given us today is going to help other 
communities around the country, so you are not only doing a 
service for yourselves and your communities, but you are going 
to help other cities as well.
    So to you and Mayor Giuliani, thank you very much. Nice 
being with you today.
    Mr. Timoney. Thank you, Mr. Burton.
    Mr. Burton. We stand adjourned.
    [Whereupon, at 2:59 p.m., the committee adjourned subject 
to the call of the Chair.]


</pre></body></html>
